<html>
<title> - HEARING ON THE COSTS OF CLIMATE CHANGE: FROM COASTS TO HEARTLAND, HEALTH TO SECURITY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                HEARING ON THE COSTS OF CLIMATE CHANGE:
                       FROM COASTS TO HEARTLAND,
                           HEALTH TO SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, D.C., JULY 24, 2019

                               __________

                           Serial No. 116-13

                               __________

           Printed for the use of the Committee on the Budget

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available on the Internet:
                            www.govinfo.gov
                            
                             __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-724                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                            
                            
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
SETH MOULTON, Massachusetts,         STEVE WOMACK, Arkansas,
  Vice Chairman                        Ranking Member
HAKEEM S. JEFFRIES, New York         ROB WOODALL, Georgia
BRIAN HIGGINS, New York              BILL JOHNSON, Ohio,
BRENDAN F. BOYLE, Pennsylvania         Vice Ranking Member
RO KHANNA, California                JASON SMITH, Missouri
ROSA L. DELAURO, Connecticut         BILL FLORES, Texas
LLOYD DOGGETT, Texas                 GEORGE HOLDING, North Carolina
DAVID E. PRICE, North Carolina       CHRIS STEWART, Utah
JANICE D. SCHAKOWSKY, Illinois       RALPH NORMAN, South Carolina
DANIEL T. KILDEE, Michigan           KEVIN HERN, Oklahoma
JIMMY PANETTA, California            CHIP ROY, Texas
JOSEPH D. MORELLE, New York          DANIEL MEUSER, Pennsylvania
STEVEN HORSFORD, Nevada              WILLIAM R. TIMMONS IV, South 
ROBERT C. ``BOBBY'' SCOTT, Virginia      Carolina
SHEILA JACKSON LEE, Texas            DAN CRENSHAW, Texas
BARBARA LEE, California              TIM BURCHETT, Tennessee
PRAMILA JAYAPAL, Washington
ILHAN OMAR, Minnesota
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
JIM COOPER, Tennessee

                           Professional Staff

                      Ellen Balis, Staff Director
                  Dan Keniry, Minority Staff Director
                  
                                CONTENTS

                                                                   Page
Hearing held in Washington D.C., July 24, 2019...................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     4
    Hon. Steve Womack, Ranking Member, Committee on the Budget...     6
        Prepared statement of....................................     8
    Rear Admiral Lower Half Ann C. Phillips, USN, Retired, 
      Special Assistant to the Governor for Coastal Adaptation 
      and Protection, Office of the Governor of Virginia.........    10
        Prepared statement of....................................    13
    Stefani Millie Grant, Senior Manager for External Affairs and 
      Sustainability, Unilever...................................    29
        Prepared statement of....................................    31
    Rear Admiral Upper Half David W. Titley, USN, Retired, Ph.D., 
      Affiliate Professor of Meteorology and of International 
      Affairs, Department of Meteorology and Atmospheric Science, 
      The Pennsylvania State University..........................    43
        Prepared statement of....................................    45
    Georges C. Benjamin, M.D., Executive Director, American 
      Public Health Association..................................    60
        Prepared statement of....................................    62
    Rich Powell, Executive Director, Clearpath...................    74
        Prepared statement of....................................    76
    Hon. John A. Yarmuth, Chairman, Committee on the Budget, 
      questions submitted for the record.........................   119
    Answers to questions submitted for the record................   120

 
                    HEARING ON THE COSTS OF CLIMATE
                   CHANGE: FROM COASTS TO HEARTLAND,
                           HEALTH TO SECURITY

                              ----------                              


                        WEDNESDAY, JULY 24, 2019

                          House of Representatives,
                                   Committee on the Budget,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
Room 210, Cannon House Office Building, Hon. John A. Yarmuth 
[Chairman of the Committee] presiding.
    Present: Representatives Yarmuth, Moulton, Doggett, Kildee, 
Panetta, Scott, Sires, Morelle, Price, Khanna, Omar; Womack, 
Woodall, Smith, Meuser, Crenshaw, Holding, Hern, Timmons, 
Burchett, and Johnson.
    Chairman Yarmuth. The hearing will come to order. Good 
morning, and welcome to the Budget Committee's hearing on the 
Costs of Climate Change: From Coasts to Heartland, Health to 
Security.
    I want to welcome our witnesses here with us today. This 
morning we will be hearing from Admiral Ann Phillips, Special 
Assistant to the Governor of Virginia for Coastal Adaptation 
and Protection; Ms. Stefani Grant, Senior Manager for External 
Affairs and Sustainability at Unilever; Dr. Georges Benjamin, 
Executive Director for the American Public Health Association; 
Admiral David Titley, Affiliate Professor of Meteorology and of 
International Affairs at the Pennsylvania State University; and 
Mr. Rich Powell, Executive Director at ClearPath. Welcome to 
you all. We look forward to hearing from you.
    I now yield myself five minutes for an opening statement.
    Today is a pretty intense day for Congress. Obviously, two 
buildings over, our colleagues on the Judiciary Committee are 
looking into how the President defied the laws of our country. 
Here we are looking into how he and his Administration continue 
to defy the laws of nature and the costs of that threat to the 
habitability of our entire planet. That is a pretty important 
undercard, if you ask me.
    And that is because every day that we wait to combat 
climate change, the potential impacts on our budget, our 
economy, our security, and our communities compound. We know 
that the economic costs of climate change will be significant 
and far-reaching, but to understand how these costs will affect 
American life and our fiscal situation, we must look deeper.
    Today we will hear from experts on the looming threat of 
climate change to our coastal communities, agricultural 
economies, public health, and national security, and the 
implications for the federal budget.
    The devastating effects of climate change are already upon 
us. Families have lost their homes to record storms and raging 
wildfires, and lost loved ones to sicknesses stemming from heat 
waves and degraded air quality. Our farmers are grappling with 
changing growing seasons and declining crop yields, while 
approximately half of all U.S. military sites and two-thirds of 
the most critical installations are threatened by climate 
change.
    Without serious action, climate-related federal spending 
will continue to rise, and American families will not only have 
to grapple with the effects of climate change, they will have 
to foot the bill for the spiraling costs.
    By neglecting this crisis, we are putting our coastal 
communities and millions of people at risk. Since 2016, more 
than 3,400 Americans have been killed by hurricanes, severe 
storms, and flooding. Homes, businesses, and infrastructure on 
our coasts are facing more extreme natural disasters. Already 
eight out of nine U.S. real estate companies are citing 
operational risks and costs from flooding and hurricanes in 
their environmental disclosures. As the risk of being hit by a 
category four or five hurricane continues to grow, U.S. 
military facilities along the coast are vulnerable as well, 
threatening our military and defense readiness.
    In the heartland, farmers are facing declining crop yields 
and increasingly hostile growing environments. As the climate 
warms and rainfall patterns change, the soil is eroding, floods 
and droughts are becoming more common, and the threats of heat 
stress, diseases, and pests to plants and livestock are 
exacerbated. Farm incomes are already down almost 50 percent 
from 2013, and over the next three decades our agricultural 
economy could see an annual productivity drop of more than 4 
percent from complications related to climate change. With our 
farms under siege at home and demand growing worldwide, 
American families will find it more expensive and more 
difficult to put food on the table.
    As pretty much anyone in this room can attest, July 2019 is 
on pace to be the hottest month ever recorded, with heat 
advisories and health warnings cautioning us to protect 
ourselves and our families against scorching temperatures. 
These dangerous heat waves are predicted to become more 
frequent in the years ahead, posing a severe threat to our 
nation's most vulnerable.
    By 2050, more than 90 million Americans, a 100-fold 
increase, will experience a month or more of temperatures 
indexing above 105 degrees in an average year. Heatstroke, 
respiratory illnesses, and heart attacks could kill thousands 
more every year, and more people will be exposed to infectious 
diseases transmitted by mosquitoes and ticks such as West Nile, 
Zika, and Lyme disease, as the insects spread across broader 
areas of the United States.
    But the United States will not suffer in isolation. 
Countries across the world will experience similar challenges, 
many to an even greater degree. Even before the President 
pulled the U.S. out of the Paris climate agreement, former 
Secretary of Defense James Mattis cautioned that climate change 
is ``a driver of instability, with the potential to upend the 
international arena.''
    Around the world populations will experience greater food 
and water insecurity, more infectious disease outbreaks, 
worsening natural disasters, and other threat multipliers. This 
in turn will heighten the risk of social unrest, political 
instability, and conflict abroad, with the potential to 
jeopardize our national security, compromise our defense 
readiness, and increase the cost and complexity of future 
missions and humanitarian efforts.
    But this future, as bleak as it is, does not have to come 
to fruition. As our witnesses will testify, we can reduce 
carbon pollution and make meaningful investments in our health 
and safety. Thankfully, the deal reached earlier this week to 
raise the budget caps will empower Congress to continue making 
critical investments in clean energy and resilience while 
avoiding potentially damaging fiscal and environmental impacts 
of the sequester. It is my hope that this hearing will enable 
Congress to better prepare for the wide-ranging impacts of a 
changing climate.
    [The prepared statement of Chairman Yarmuth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. I now yield to Ranking Member Womack for 
his opening statement.
    Mr. Womack. I thank the Chairman for holding this hearing. 
Welcome to our panel.
    This is the second opportunity we have had this year to 
discuss climate change. I am hopeful that we can examine 
common-sense solutions that balance environmental challenges, 
the nation's economic needs, and the budgetary reality facing 
all of us.
    When this Committee met last month, we heard testimony 
about the impacts of the changing climate. While we have our 
differences on how to address the issue, one thing was made 
clear to me, and that is, we recognize the responsibility to 
support sustainability and the energy needs of the future.
    Mr. Chairman, I recall at our last hearing on this topic 
you wanted to discuss a full range of solutions to climate 
change, not only the Green New Deal, and I could not agree 
more. While the Democrats' prevailing plan, the Green New Deal, 
has the support of nearly 100 members of the caucus, 12 of whom 
serve on this Committee, and bears a $93 trillion price tag, 
Republicans are focused on serious solutions that leverage 
innovation and American ingenuity to address our challenges.
    We support strategies that take action against harmful 
emissions without disrupting the economy and burdening 
hardworking Americans with new taxes and mandates. By being 
good stewards of the environment and advancing an all-of-the-
above energy plan, we can support productivity and 
sustainability for the future.
    Meanwhile, the Green New Deal would impose drastic, 
impossible energy mandates that would eradicate jobs, and in 
some cases, entire industries. Congress should focus on 
policies that build on our successes and create a robust 
innovation pipeline, not sweeping overhauls that stifle 
competition and economic progress while adding trillions more 
to our debt and destroy sectors of our economy.
    We should break down regulatory barriers that hamper 
research and development and encourage investments into current 
and emerging technologies, including carbon capture, renewable 
hydro power, nuclear power, and energy storage.
    The United States is at the forefront of clean energy 
efforts, and we must continue to leverage current capabilities. 
Nuclear power generation, which accounts for 20 percent of our 
nation's power supply, is a great example of technology that is 
fueling the U.S., creating jobs, growing our economy, and 
reducing the environmental impact.
    We should double down on efforts that promote increased 
private sector development of next generation nuclear 
technology. Policies like the bipartisan H.R. 1760, the 
Advanced Nuclear Fuel Availability Act, which passed the House 
last Congress and was reintroduced this March by my friend and 
colleague from Texas, Mr. Flores, will help us do just that.
    Resuming the nuclear waste storage program at Yucca 
Mountain, which I visited last July, can also help to ensure 
more nuclear plants do not close for lack of a repository. With 
340 of my colleagues, the House passed the Nuclear Waste Policy 
Amendments Act last year. Nuclear energy is important to both 
our power supply and addressing climate change, and I hope that 
House leadership will bring this bill to the floor to move 
forward on this critical nuclear waste storage program.
    Pursuing other available resources such as natural gas will 
allow us to take advantage of more efficient, cleaner, and 
economical energy options. Carbon capture technology will make 
this source even cleaner. My colleague from Texas, Mr. 
Crenshaw, recently introduced H.R. 3828, the LEADING Act of 
2019, bipartisan legislation that prioritizes funding for 
research and development for technology to capture carbon 
emissions. I am pleased to support this bill as well.
    American ingenuity has solved many challenges, and I 
applaud my colleagues for pushing effective policies that 
maintain and accelerate our clean energy edge on multiple 
fronts. So as we examine the ideas in front of us today, I 
encourage my friends on the other side of the aisle to consider 
the solutions that have been put forward by my colleagues. 
These proposals are bipartisan, they are viable, and they are 
cost-effective to the radical Green New Deal.
    It is my hope that we can come together to support market-
based solutions that make clean energy more affordable and 
reliable, create jobs, and address climate change challenges.
    Mr. Chairman, I look forward to hearing from our witnesses 
today, and I yield back the balance of my time.
    [The prepared statement of Steve Womack follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. I thank the Ranking Member for his 
opening remarks. In the interests of time, if any other members 
have opening statements, you may submit those statements in 
writing for the record.
    Once again I want to thank our witnesses for being here 
this morning. The Committee has received your written 
testimony, and that will be made part of the formal hearing 
record. Each of you will have five minutes to give your oral 
remarks.
    Admiral Phillips, you may begin when you are ready.

  STATEMENTS OF REAR ADMIRAL LOWER HALF ANN C. PHILLIPS, USN, 
    RETIRED, SPECIAL ASSISTANT TO THE GOVERNOR FOR COASTAL 
ADAPTATION AND PROTECTION, OFFICE OF THE GOVERNOR OF VIRGINIA; 
 STEFANI MILLIE GRANT, SENIOR MANAGER FOR EXTERNAL AFFAIRS AND 
  SUSTAINABILITY, UNILEVER; REAR ADMIRAL UPPER HALF DAVID W. 
TITLEY, USN, RETIRED, PH.D., AFFILIATE PROFESSOR OF METEOROLOGY 
  AND OF INTERNATIONAL AFFAIRS, DEPARTMENT OF METEOROLOGY AND 
ATMOSPHERIC SCIENCE, THE PENNSYLVANIA STATE UNIVERSITY; GEORGES 
 C. BENJAMIN, M.D., EXECUTIVE DIRECTOR, AMERICAN PUBLIC HEALTH 
    ASSOCIATION; AND RICHARD J. POWELL, EXECUTIVE DIRECTOR, 
                           CLEARPATH

              STATEMENT OF ADMIRAL ANN C. PHILLIPS

    Admiral Phillips. Thank you, Chairman Yarmuth, Ranking 
Member Womack, Members of the Committee. Thank you for the 
opportunity to testify before you today. My name is Ann 
Phillips. I serve as the Special Assistant to the Governor of 
Virginia for Coastal Adaptation and Protection.
    I am a retired surface warfare officer. I drove and 
commanded ships for the United States Navy for 31 years, served 
aboard in Guam and Lisbon, Portugal, and operated extensively 
with NATO and Partnership for Peace nations. I retired in 2014 
as a rear admiral and commander of Expeditionary Strike Group 
2, and have been involved in multiple efforts since then 
highlighting the impact of climate change on national security.
    Today I am here to talk about the significant impact that 
climate change has on coastal communities in Virginia. There is 
an urgent need for a coordinated federal effort to deal with 
the impacts that this is causing to us. This Committee can help 
by recognizing climate resilience and disaster preparedness as 
one of the country's greatest and most immediate needs, taking 
action to address that need now.
    In Virginia we have over 10,000 miles of tidally-influenced 
shoreline. We have experienced over 18 inches of relative sea 
level rise in a hundred years. The duration, severity, and 
impact of flooding have increased substantially, and coastal 
storms are magnified as a result.
    Projections show we are likely to receive an additional 18 
inches of sea level rise by mid-century. We are dealing with 
water where we did not plan for it to be and which impedes the 
expected pattern of our daily lives in some form every day. We 
are not simply preparing. We are living with water now.
    Virginia, coastal Virginia, has a water-based economy. It 
is at risk. The cornerstones of that economy are our federal 
presence, arguably the largest concentration in the nation, 
including our largest naval base, Naval Station Norfolk, the 
only shipyard where we build aircraft carriers and one of only 
two places where we build nuclear-powered submarines, Newport 
News Shipbuilding owned by Huntington Ingalls.
    We also have the Port of Virginia, sixth largest container 
port by traffic volume in the country, generating $80 billion 
in annual economic impact for the state. We have beach- and 
water-related tourism, which generates $5.2 billion for our 
coastal region; aquaculture and fisheries, $1.4 billion in 
annual sales; and our waterfront property and housing stock, a 
key source of property tax income for both urban and rural 
localities.
    As an example of the impacts on some of Virginia's cities 
now, the City of Virginia Beach has estimated $2.4 billion in 
anticipated cost to reduce flooding and storm impacts across 
that city. This will protect 45,000 homes and 85 square miles, 
approximately a quarter of that city's territory. And the City 
of Norfolk, working with the Army Corps of Engineers, has an 
estimated $1.57 billion in proposed projects to reduce the 
impact of storm surge. This does not address recurrent flooding 
caused by sea level rise, tides, winds, and rainfall, and it 
did not include any Department of Defense property impacts or 
outcomes.
    Virginia has laid groundwork to prepare, creating a series 
of boards and commissions and scientific studies over the past 
10 years. The challenge has been that the General Assembly has 
been reluctant to take funded action on climate change or sea 
level rise, most recently rejecting a proposal from Governor 
Northam during the 2019 General Assembly to dedicate more than 
$50 million a year from the sale of carbon pollution allowances 
towards coastal resilience.
    As a result, local governments are taking the lead. They 
are fighting sea level rise and recurrent flooding, and they 
understand the scope, scale, and cost of those challenges today 
and in the future. Under Governor Northam, Virginia is taking 
action, bold and substantive action, to build capacity as we 
work with the General Assembly to address funding to deal with 
this existential threat.
    Last November Governor Northam signed into practice 
Executive Order 24, increasing Virginia's resilience to sea 
level rise and natural hazards. This will require the 
Commonwealth to determine the vulnerability and set standards 
for state-owned infrastructure, develop a coastal protection 
master plan for the state, coordinate and collaborate and 
communicate across state, federal, and local government.
    Through this process we will be able to determine the best 
and most practical, innovate, and cost-effective solutions to 
adapt and protect our infrastructure. We will be able to use 
creative and less costly green-grey infrastructure approaches 
for more dispersed assets. We will be able to focus on 
underserved communities. And finally, we will leverage federal 
and state funds to align them to make coastal Virginia more 
resilient.
    Even with strong state action, we cannot do this alone. The 
actions of Congress and this Committee are vitally important to 
protecting people and property. Congress must follow through on 
the recent budget cap agreement to lift the sequester on non-
defense discretionary spending, and to ensure that agencies 
like FEMA, the Army Corps, NOAA, USGS, NASA, HUD, and others 
have adequate funding to help protect communities.
    And again, this Committee must recognize that climate 
resilience and disaster preparedness are one of the country's 
greatest and most immediate needs. Rising waters and recurrent 
flooding know no political boundaries. They know no boundaries 
of wealth or race or of society. Virginia is committed to 
building capacity for our coastal communities and to build 
resilience to this threat. We have no time to waste. Time and 
tide wait for no man.
    Thank you again for the opportunity to submit this 
testimony today, and I look forward to your questions.
    [The prepared statement of Admiral Ann C. Phillips 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Yarmuth. Thank you, Admiral Phillips.
    I now recognize Ms. Grant for five minutes.

               STATEMENT OF STEFANI MILLIE GRANT

    Ms. Grant. Chairman Yarmuth, Ranking Member Womack, and 
Members of the Committee, thank you for the opportunity to 
discuss the cost of climate change as it relates to agriculture 
and supply chains. I am excited to share with you the work 
Unilever does to assist farmers in becoming resilient to 
today's extreme weather while at the same time creating 
healthier soils.
    My name is Stefani Grant, and I am senior manager of 
external affairs and sustainability for Unilever. Unilever is a 
global consumer affairs company whose brands include Dove, 
Hellmann's, and Ben and Jerry's. Seven out of every 10 
households around the world contain at least one Unilever 
product.
    Whatever the brand, wherever it is bought, we are working 
to ensure that it plays a part in helping fulfill our purpose 
as a business, making sustainable living commonplace. We want 
our business to grow, but we recognize that growth at the 
expense of people or the environment is both unacceptable and 
commercially unsustainable.
    The U.S. just suffered through its wettest 12-month period 
in history. Extreme climate swings have created 10 million 
abandoned acres due to floods this year, which roughly equals 
about $6.5 billion in lost revenue, and studies indicate that 
the extreme weather events will continue to increase. The USDA 
Economic Research Service released a report just this week that 
shows, due to climate change, crop insurance costs will 
increase between 3\1/2\ to 37 percent by 2080.
    Food prices are dependent upon several factors, with crop 
availability one of the most important. However, it is 
difficult to predict exactly how climate change will affect 
food prices. For commodity pricing, shortages in one part of 
the world affect prices in other parts of the world. For 
example, corn is used globally for livestock feed and feed 
stock for biofuels, and swings in production can ripple through 
global markets, leading to price spikes.
    As a company we are also looking to better understand how 
extreme weather events will affect our sourcing of key 
ingredients in the future as we prefer to source our 
ingredients as locally as possible. Given this, we use crop 
forecasting models which provides data on predicted yield 
changes around the world to allow better planning on crop 
sourcing.
    At Unilever we believe tackling climate change requires 
transformational changes to broader systems in which we 
operate. We believe a strong government policy that creates the 
right context for change in business action is needed. In my 
role I design and implement our sustainable sourcing programs 
in the U.S. We have been working with farmers since 2013, 
listening to understand the issues they face.
    We recently relaunched our Hellmann's Sustainable Soy 
Program, focusing on soil health and nutrient runoff reduction 
through providing cost-share and technical assistance for cover 
crops. Cover crops help build resilient soils and allow farmers 
to use less inputs over time.
    And for our Knorr brand, we are working with rice farmers 
in Arkansas to help them test different practices that use less 
water, as rice is a very water-intensive crop. We have 
partnered with the University of Arkansas to collect and 
analyze the practices, yields, and water usage, and share the 
data back with the growers.
    It is imperative that Congress prepare for extreme weather 
through policies to help make farms more resilient to be able 
to adapt to the changing conditions. Since the 1930s there has 
not been a piece of legislation that has solely focused on soil 
resiliency for farmers. We believe that focusing on soil 
resiliency, not as a good conservation practice but as a good 
farming practice, will help farmers adapt to the extreme 
weather they increasingly face.
    We ask Congress to consider the following to help farmers 
become more resilient. We encourage Congress to increase 
funding for the National Resource Conservation Service field 
offices and grant programs, for farmers to test and scale 
resilient soil health practices. Increased funding is also 
needed for coordinated national research on soil health and 
resilient practices, along with continued research into long-
term cropping systems. And we believe the risk management 
agencies should treat cover crops as any other crop under crop 
insurance, and allow farmers and their agronomic advisors to 
make the relevant management decisions.
    In closing, I want to share a story from a farmer we work 
with through Practical Farmers of Iowa, who helps advise our 
Hellmann's farmers on cover crops. His name is Nathan Anderson, 
and he farms in Northwest Iowa alongside his dad. This is his 
story.
    ``While often working together, my dad and I have a 'brains 
of the day' and 'brawn of the day' award. In 2013, after a few 
years of using no-till and cover crops, we had a devastatingly 
heavy rainfall event. The water from a neighboring field was 
streaming off with enough force you could take a kayak across 
the field. Once that water entered our field, the force of the 
water slowed, the sediment it was carrying dropped out, and its 
impact was lessened. My dad looked out the window through the 
pouring rain at that stream of water and said matter-of-factly, 
'That may be the brains of the year' award.''
    This is one of many examples I hear from growers on why it 
is so important to build soil health for resiliency. As a 
company, we believe it is important to invest in our farmers 
and help them become more resilient. We call on Congress to do 
the same.
    Thank you, and I look forward to your questions.
    [The prepared statement of Stefani Millie Grant follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you for your testimony.
    I now recognize Admiral Titley for five minutes.

   STATEMENT OF ADMIRAL DAVID W. TITLEY, USN, RETIRED, PH.D.

    Admiral Titley. Thank you very much, Chairman Yarmuth, 
Ranking Member Womack, and distinguished Members of the 
Committee, for the opportunity to present today. It is a 
privilege to come before you at this hearing and discuss this 
very important topic. I am David Titley. From 2013 to 2019, I 
served as the founding director of the Center for Solutions to 
Weather and Climate Risk at the Pennsylvania State University.
    I served in the U.S. Navy for 32 years, retiring in 2012 as 
the Oceanographer and Navigator of the Navy, and the director 
of U.S. Navy Task Force Climate Change. I continue to serve as 
an unpaid advisor for several organizations, including the 
National Academy of Science and the Center for Climate and 
Security. I am testifying today in my personal capacity.
    In the Navy, we have a saying: Just give me the bottom line 
up front, or the BLUF. So here is my BLUF for today's hearing.
    For the Pentagon, adapting to climate change is a readiness 
issue. It is not a partisan or a political issue or a desire to 
appear green. The department needs to manage the risks of 
climate change to ensure its readiness in the years and decades 
to come. The ice does not care which party has control of the 
House or Senate, or who is in the White House. It just melts.
    The extremes of yesterday do not foretell the extremes of 
tomorrow. We have an excellent understanding of how our climate 
system works based on 150 years of science. If we choose to 
leverage this science, it will help us strengthen our society 
and our security.
    And finally, the rapid changing climate has significant 
impacts on our national security. The days of climate stability 
we have experienced for most of human civilization are over.
    Changing climate impacts the national security in three 
significant ways, changing the battle space, or the physical 
environment in which our Soldiers, Sailors, Airmen, and Marines 
will operate. The Arctic is a prime example of an operational 
environment that is changing rapidly today.
    It poses increasing risk to the Department of Defense's 
installations. Without fully operational bases and training 
ranges in the United States, in addition to key overseas bases, 
U.S. forces cannot maintain the required levels of readiness.
    And finally, it is important to note that a changing 
climate can make already unstable situations worse, and 
sometimes catastrophically so. Climate change can be a powerful 
link in a chain of events that, if not broken, can lead to 
runaway instability. We will be managing the risks of climate 
change for decades to come. It is not an issue that will be 
solved with a single policy or program.
    So what to do? My written testimony contains specific 
actions that, if enacted, would help the Department of Defense 
manage their risk from climate change. These include: 
developing authorized standards data on vulnerabilities in the 
value of each installation, understanding this is a challenge 
that does not stop a defense line, and ensuring that climate 
sanity check is part of any training, procurement, or base 
construction process.
    Fifty years ago we went to the moon and returned safely, 
not knowing everything we needed to know at the start of that 
journey. President Kennedy rightfully emphasized how hard 
meeting the challenge would be, but also how important it was 
to achieve our goal. In today's dollars, the Apollo program 
cost about $150 billion. That is a lot of money. But to put it 
in perspective, natural disasters in 2017 cost American 
citizens over $300 billion, the equivalent of two Apollo 
missions.
    We all know we need to expeditiously decarbonize our 
society and the world's economy. But many of us are rightfully 
concerned about the potential societal and economic 
dislocations and costs such policies might bring about.
    Imagine an Apollo-scale program, $150 billion over a 
decade, to attack the challenges of energy storage and 
transmission, cost-effective generation of non-carbon-based 
power regardless of weather conditions, and an ability to 
economically and safely remove greenhouse gases from the 
atmosphere when that is the only practical solution.
    Like Apollo, there would be huge private sector 
participation. Like Apollo, there would be spinoffs that would 
propel society for decades to come. Unlike Apollo, there would 
be even greater opportunities for international collaboration. 
So what should be the goal? To effectively decarbonize the U.S. 
and the global economies by mid-century without shock and 
disruption. It will be hard, but so was going to the moon.
    Thank you very much for your time and attention, and I look 
forward to your questions. I yield my time.
    [The prepared statement of Admiral David W. Titley 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Yarmuth. Thank you very much for your testimony.
    I now recognize Dr. Benjamin for five minutes.

             STATEMENT OF GEORGES C. BENJAMIN, M.D.

    Dr. Benjamin. Thank you, Chairman Yarmuth and Ranking 
Member Womack and Members of the Committee. I want to thank you 
for inviting me on behalf of the American Public Health 
Association to testify today on the serious public health risks 
we face from climate change.
    Let me just point out that we strongly believe that climate 
change is certainly here now and is impacting our health today. 
And I want to do that through a look at three specific health 
threats. I will start with extreme heat.
    Obviously, we just finished a week of extreme heat across 
most of the United States, and according to press reports, we 
have had at least six heat-related deaths from this particular 
heat wave to date. We also know that exposure to extreme heat 
kills more people in the United States than any other weather-
related threat, more than 600 people annually.
    We also know that extreme heat events are on the rise, and 
it is projected by the year 2050 by the EPA that we will have 
approximately 3,400 more premature deaths each year. Heat-
related illness disproportionately affects climate-sensitive 
populations. We think about children and older adults, who are 
the populations most at risk, are prone to heat stress because 
they have a harder time regulating, basically, their body. 
People who work outside, like agriculture and construction 
workers, are at increased risk because they are working 
outside.
    Floods are one of the deadliest weather-related hazards in 
the United States, second only to heat. And we have already 
seen an increase in the number of heavy precipitation events in 
the United States which led to several floods. Now, flood 
waters become contaminated with agricultural waste, chemicals, 
and raw sewage, and that sewage carries disease, which has 
disease-causing bacteria, parasites, and viruses. We know that 
poor water quality leads to more illnesses, and even a few 
inches of standing water can lead to injury.
    Drought conditions bring wildfires, dust storms, and 
reduced air quality. As we have recently seen in California and 
in some other parts of the country, exposure to wildfire smoke 
increases the incidence of respiratory and cardiovascular 
problems for communities both near and far.
    Severe storms, including hurricanes and tornadoes, impact 
the health of a population in just many ways--acute traumatic 
events, obviously, but also during the event and then even 
cleanup, toxic chemical exposures from leaked materials, food 
and water contamination, and actually the loss of the 
healthcare infrastructure, not just hospitals but even just 
losing your country and corner public health practice due to 
blocked roads or sidewalks, loss of power, and basic damage to 
the infrastructure.
    I would be remiss if I did not talk about the impact of 
both short-term and long-term mental health challenges, which 
often go under-appreciated. With climate change comes more air 
pollution. This can lead to increased risks of health from 
cardiovascular disease and other respiratory conditions like 
allergies and asthma.
    Asthma causes about 3.8 million missed work and school days 
each year, causing indirect impact on education and work 
productivity. Now, this is important because educational 
attainment and economic mobility is strongly linked to improved 
health. Asthma itself is responsible for nearly two million 
emergency department visits each year, and in 2016 it was 
projected that asthma costs about $56 billion in costs each 
year in both direct and indirect costs.
    Greater rainfall and warmer temperatures influence the 
geographic distribution of mosquitoes and ticks to where people 
live. They can spread diseases such as dengue fever, malaria, 
yellow fever, West Nile virus. And of course we saw with Zika 
fever the microcephaly and other birth defects that can come, 
which is significant issue and an extraordinary cost, both a 
human cost and a financial cost.
    Now, we know that some people are at greater health risk. 
Climate-sensitive populations with limited resources to adapt 
to climate change will experience a disproportionately greater 
adverse health impact. Vulnerable populations do this because 
they depend on, fundamentally, community resilience. And 
communities can increase their general resilience by addressing 
really the core social determinants of health--poverty, 
educational attainment, social capital, and of course, access 
to healthcare.
    Now, there are costs. The health, social, and economic 
costs of climate change are vast, and at least one study has 
estimated health costs in--it looked at six climate-related 
events, which range anywhere from $14- to $40 billion. And that 
is really an important study.
    In addition, if you think about the cost to the federal 
budget for things like Medicare or Medicaid, the Veterans 
Health Administration, and Department of Defense, we really do 
not know what those costs are but certainly they are going to 
grow substantially.
    In closing, as a physician I just want you to know I 
believe that there is hope. We can treat this. But time is not 
on our side. Congress and the Administration must take steps 
now to address climate change by reducing greenhouse gas 
emissions, strengthening the ability of our federal, state, and 
local public health agencies to protect the public from the 
health effects associated with climate change.
    Thank you, and I will be happy to take any questions.
    [The prepared statement of Georges C. Benjamin, M.D., 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Yarmuth. Thank you, Dr. Benjamin.
    And I now recognize Mr. Powell for five minutes.

                 STATEMENT OF RICHARD J. POWELL

    Mr. Powell. Good morning and thank you, Chairman Yarmuth, 
Ranking Member Womack, and Members of the Committee. My name is 
Rich Powell. I lead ClearPath, a nonprofit advancing 
conservative policies that accelerate clean energy globally. We 
advocate markets over mandates and innovation over regulation. 
An important note: We receive zero funding from industry.
    Given this Committee's vital role in America's climate 
policy, I will today discuss a few topics: first, how the 
global nature of the climate challenge requires an innovation-
focused policy; second, how we ought to invest in innovation 
versus simply spending on clean energy; third, how these 
investments in clean energy must be oriented around aggressive 
goals; fourth, how a goals mindset challenges us to rethink the 
basic versus applied divide in research and development; and 
fifth and finally, how you can build on last Congress's 
bipartisan clean innovation record.
    Before diving into budget policy, I think it is first 
always important to address the elephant in the room. Climate 
change is real. Global industrial activity is the dominant 
contributor, and the challenge it poses to our health, our 
security, our agriculture, our infrastructure, and our 
communities merits significant action at every level of 
government and the private sector.
    The National Oceanic and Atmospheric Administration 
estimates that the five-year running average damages of weather 
events has risen fivefold over the past 20 years, from $20 
billion to $100 billion annually. As you also well know, 
managing our national debt is another defining challenge of 
this century. This Committee must balance both demands.
    First, we must remember the global nature of this 
challenge. America should do its part, but even if the U.S. 
eliminated greenhouse emissions tomorrow, the growth in 
CO<INF>2</INF> by 2050 by developing Asian countries alone 
would exceed total U.S. emissions today. Now, for too long this 
sobering reality was used to justify inaction. Instead, it 
should serve as a call to action towards an immense 
opportunity--high-paying jobs, a manufacturing renaissance, 
thriving U.S. exports.
    Second, we need to reorient our climate policy mindset from 
spending to investing. As a consultant at McKinsey and Company, 
the most important business philosophy I used came from the 
great Stephen Covey: ``Begin with the end in mind.'' On climate 
change, our end ought to be developing countries buying clean 
energy instead of traditional technologies.
    We cannot spend our way to that end. The global energy 
system is too large, our budget too small. Rather, we must 
invest scarce taxpayer dollars into clean innovations that the 
global economy will choose on their economic merits. This is a 
market-based climate solution. Unfortunately, our energy debate 
is often caught between extremes. On one side some advocate 
virtually no federal investment. Others seek permanent 
subsidies to favored technologies.
    To the first point, why should clean tech not emerge, like 
Silicon Valley innovation? Unfortunately, two people in a 
garage rarely innovate advanced energy. It requires massive 
scale, and regulations scare power producers away from new 
tech. The oft-described valley of death between a lab and a 
profitable business is deep.
    Taxpayers supported all new energy sources in recent 
decades. Going forward, government should neither command and 
control a solution nor do nothing and hope. Government should 
support a wide portfolio of clean innovations and ramp down 
support as technologies mature. The potential clean returns of 
such investing are literally world-changing.
    Third, let me address the importance of strong objectives 
in clean energy investments. When DOE has clear goals based on 
market-relevant cost and performance targets along with strong 
leadership and accountability and steady investments, it 
produces breakthroughs. The SunShot Initiative to radically 
decrease the cost of solar is a strong example.
    Another prime example: Since 2013, DOE has invested in 
next-generation small, modular nuclear reactors in partnership 
with NuScale. Earlier this week, NuScale announced that the 
U.S. Nuclear Regulatory Commission completed the second and 
third phases of design review. They are a big step closer to 
marketing the world's first SMR, potentially by 2026.
    Fourth, Congress must grow past the outdated mindset of 
basic-only research. Nothing has illustrated this more than the 
shale gas boom. This breakthrough produced an economic windfall 
estimated at $100 billion annually, and has driven power sector 
emissions down since 2005. It emerged from combined basic and 
applied research and targeted tax incentives and private sector 
contributions.
    We should remember that our global competitors have no 
philosophy against applied research. The Chinese have scooped 
up U.S. innovators struggling to commercialize here in America. 
A basic-only research agenda is essentially a subsidy to the 
Chinese economy. Not a wise investment.
    Finally, how do we build on your strong bipartisan record 
of clean innovation? The fiscal year 2018 and 2019 
appropriations bills were great successes. ClearPath applauded 
the critical investments in advanced nuclear, carbon capture, 
grid scale storage, and other clean energy technologies. 
Lawmakers maintained U.S. leadership in clean innovation, a 
principle essential to prioritize again in your fiscal year 
2020 bills. Steady DOE funding is required, but even more 
important are direction and goals to ensure dollars are 
invested wisely.
    Thank you again for the opportunity to testify. ClearPath 
is eager to assist the Committee in your important work.
    [The prepared statement of Richard J. Powell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Mr. Powell, and thanks again 
to all the witnesses for their prepared remarks. And we now 
begin our question-and-answer period. The Ranking Member and I 
will defer our questions till the end.
    So I now will yield five minutes to the gentleman from 
Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, one reality with climate change is the same 
reality that we are going to address this afternoon with the 
pension crisis, and that is, the cost of doing nothing greatly 
exceeds the cost of doing something. We know the pension plan--
we could fix it for about $50 billion. If we do nothing, the 
federal budget will be hit with $170 to $400 billion. Climate 
change is the same. We need to make the investments in climate 
change for resiliency. When the flood comes, when the event 
occurs, if you have invested in resiliency, the damage done 
will be much less.
    Let me ask Admiral Phillips--and I thank you for your 
service in the military and continuing that service, helping us 
address the sea level rise--can you tell us what the cost of 
sea level rise will be to our military if we do nothing?
    Admiral Phillips. Congressman Scott, thank you very much 
for that question. The challenge for the military is of course 
focused on readiness and resilience. And the cost of doing 
nothing is that they will be repeatedly exposed, as they have 
been this year, with Tyndall, with Offutt in Nebraska, to 
repeated incidences of increasingly severe weather-related 
impacts that have cost outcomes.
    Not only will they have to deal with those kinds of impacts 
here at home in the United States--and I would add Hampton 
Roads can be added to that list because it is not a question of 
if with us, it is a question of when, and Isabel in 2003 was 
one of the most expensive storms at the time for the Department 
of Defense, particularly as related to Langley Air Force Base--
but the challenge is not only here, within the United States, 
it is also the challenge in our ability to operate downrange, 
to execute our mission, and the constant environmental impacts 
which degrade readiness over time in that theater, in that 
operating theater.
    So not only are you challenged in preparing and executing 
your training and readiness missions here within the United 
States, when you go downrange you have an additional level, a 
threat multiplier, as Chairman Yarmuth used in his opening 
remarks, a threat magnifier that will add increased challenges 
and stress to your ability to execute your mission. That will 
all come at a cost.
    And the longer we wait to prepare for that cost, the more 
expensive--just like preparing the coast of Virginia. The more 
expensive those costs, those costs will rise, and the window 
and the variety of challenges and options that we will have 
will decrease.
    So it is going to be a building impactor over time, and we 
are behind. We are behind in preparing coastal Virginia. We are 
behind in preparing the Department of Defense. We are chasing 
the target because we are not willing to engage up front, set 
standards and plan appropriately so that we are prepared for 
what we will encounter in our future.
    Mr. Scott. Thank you. Earlier this month I had the pleasure 
of attending the Hampton Roads Planning District Commission 
meeting that you were at. We are seeing that the cities in 
Hampton Roads are working together. But why is federal support 
needed if the localities are in fact working together?
    Admiral Phillips. Well, Congressman, a lot of the federal--
the challenge is working directly, for a federal entity to work 
directly with a local--a city or a locality. There are reasons 
based on funding and law, funding streams that do not exactly 
cross and align. Budget cycles do not align. Planning processes 
and planning horizons do not necessarily align.
    However, in Hampton Roads, which is a wonderful example, 
all those federal facilities are deeply embedded within our 
communities. The people that work on those facilities, whether 
they are Soldiers, Sailors, Airmen, Marines, are all living in 
those communities. The contract support, the logistic support, 
the infrastructure support for those communities, the 
utilities, all comes from the surrounding communities.
    So you cannot isolate those facilities and protect them. 
You must work within the broader community effort, the broader 
community, the broader region--in this case we are talking 
about Hampton Roads--to coordinate a response to be able to 
prepare not only those communities, but also to support those 
federal facilities who are mutually reliant upon each other. 
Their futures are inextricably linked. You cannot solve one 
problem without solving it holistically.
    Mr. Scott. Thank you.
    Dr. Benjamin, the Education and Labor Committee recently 
held a hearing on how to deal with worker-related, mostly heat-
related, health problems. How can we best protect the health of 
workers who are exposed to heat on a regular basis?
    Dr. Benjamin. I spent the first nine years of my clinical 
career practicing medicine in the Army. And one of the things I 
learned was that it was very important for a commander to be 
responsible for their troops. And that means keeping them 
physically fit, well hydrated, and paying a lot of attention to 
the weather, and building that into the work process to protect 
workers.
    And that is going to be essential, that we do that and that 
we pass legislation to ensure that workers are properly 
protected. I know there is some legislation on the Hill right 
now to begin looking at that, and we have been in support of 
that legislation.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time is expired, and I 
now recognize the gentleman from Georgia, Mr. Woodall, for five 
minutes.
    Mr. Woodall. Thank you very much, Mr. Chairman. You 
described the Judiciary Committee hearing going on across the 
way in your opening statement. I do not think any minds are 
going to be changed or any new information is going to be 
provided there this morning. I hope that is not going to be 
true of our Committee here.
    You also referenced the Administration as continuing to 
defy the laws of nature and the cost of that treat to the 
habitability of our entire planet. I know a lot of folks 
believe that to be true, which is why I very much appreciated, 
Mr. Powell, your referencing the last two years of success, 
bipartisan success, that we have had.
    I do not see a pathway forward in an ``us against them'' 
dynamic. To your point, it is not just us against them, 
Democrats and Republicans. It cannot be us against them on a 
planetary level. We are all in this together, and I very much 
appreciate your bringing that forward.
    I am thinking about that Apollo-level project that Admiral 
Titley described. In your testimony, Admiral Titley, you said, 
``The days of climate stability we have experienced for most of 
human civilization are over.'' Is an Apollo-level project going 
to change that statement? Is that your conclusion if we do 
nothing, or is that your conclusion even if we engage at the 
very high level that you are proposing?
    Admiral Titley. Thanks very much, Congressman, for the 
question--so if we do nothing, if we continue business as 
usual, then that stability that we have built human 
civilization on is absolutely over and we are going to take 
ourselves--not to be apocalyptic, but we are going to take 
ourselves into a place where we have not ever seen civilization 
before--seven, eight degree average temperature rises, and that 
would equate long-term to sea level rises of 20 to 30 feet.
    Mr. Woodall. All of which we could prevent if we were-
    Admiral Titley. Exactly. If we get serious about this 
issue, and I would define $100 to $200 billion, roughly an 
Apollo-type program, wisely spent, wisely managed, with 
leadership and, as one of the witnesses said, with defined 
goals. So how do you buy down this risk? And the way we buy 
down the risk is to ultimately decarbonize not only the U.S. 
but the world economy. And then we can get back to stability, 
or more stability, and we manage this problem.
    Mr. Woodall. Well, Mr. Powell mentioned we have got to 
figure out where it is that we are going. I am thinking about 
your testimony, Ms. Grant, about Unilever. Even within a 
company, you all have set carbon pricing at three different 
levels, as I understand your testimony--one Unilever-wide, one 
with Ben and Jerry's and its supply chain, and one with your 
beauty----
    Ms. Grant. Love Beauty Planet.
    Mr. Woodall.--Love Beauty Planet line. How in the world am 
I supposed to bring 435 Members of Congress together on a 
carbon pricing scheme that is the right one when even as a 
company that is following your internal drive, you have not 
been able to come together on a single carbon pricing model?
    Ms. Grant. Within that, we do allow some of our companies, 
such as Ben and Jerry's, to operate on their own as we have 
brought them in and we let them continue operating with that. 
But we do have a number of principles and groups that we 
support, that we put out principles that we would suggest. And 
I am happy to give those to you after the hearing to lay out 
what we think it should do. But we do support carbon pricing 
and think that is a way forward.
    Mr. Woodall. If we set a carbon pricing model as a nation 
that was lower than the one that you all have adopted as a 
company, would you lower your standards to meet the new federal 
mandate?
    Ms. Grant. As we are a global company, we would probably 
keep our global level.
    Ms. Grant. You probably would.
    Mr. Powell, let me tell you, every time I drive up the BW 
Parkway, I am going through Northeast D.C. and Maryland where I 
see all the solar panels on the north sides of houses under 
big, beautiful oak trees. It drives me crazy because I know 
that taxpayers at the federal, state, or local level subsidized 
that, and we are not getting the smart value out of that.
    When you are talking across the spectrum in your business, 
do you find any resistance, whether it be ideological or 
international, towards trying to find a smart pathway forward 
as opposed to just throwing everything against the wall and 
seeing what sticks? That $100 billion program can go by pretty 
fast that Admiral Titley mentioned if we are just throwing it 
everywhere instead of at the very targeted places that we know 
we can do the most good.
    Mr. Powell. I do think most folks, and I think there is 
wide bipartisan support for a smart, goals-oriented investment 
policy in this space--I do think that there has been a tendency 
to try all of these efforts, right, like widespread rooftop 
solar, for example, that actually have very, very small carbon 
impact.
    We would argue that the thing we have got to be thinking 
about is much more, how does a Nigerian energy policy-maker, 
how does an Indian energy policy-maker, think about what they 
are going to do? And what is a like-for-like substitute to the 
kind of investments they are going to make?
    So if they were going to build a massive new traditional 
coal-fired power plant, the substitute for that is probably 
going to be another great big power plant, like a nuclear 
reactor, or a coal plant with carbon capture, a natural gas 
plant with carbon capture, or a huge grid scale solar project 
with battery storage attached, and that that is actually the 
kind of thing that we ought to be focusing more of our 
attention on, more globally-relevant sorts of clean energy 
solutions.
    Mr. Woodall. That seems like something we could find a vast 
agreement on, Mr. Powell. Thank you very much.
    Thank you for your indulgence, Mr. Chairman.
    Chairman Yarmuth. Absolutely. The gentleman's time is 
expired.
    I now recognize the gentleman from Massachusetts, the Vice 
Chair of the Committee, Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    Admiral Titley, could you address the degree to which 
climate change, increased droughts, and things like that are 
already exacerbating national security issues around the 
globe--places like Syria, the Sahel?
    Admiral Titley. Yes. Thank you for the question. So when I 
teach this in my graduate class on climate and security policy, 
there is an interaction between what I call the business end of 
climate, which is extreme events, weather extreme events--what 
are the thresholds--and those thresholds are going to depend on 
the community itself; if you are a farmer in Syria, you 
probably have different agricultural thresholds, let's say, 
than, somebody with sophisticated irrigation in the United 
States.
    And then finally, what is the government response? What is 
the society and government response? And as we have seen in 
Syria, when we had an extreme drought--and my colleagues in the 
attribution world can definitively link that drought to our 
changing climate--and the crops fail, and you have a government 
that not only does not help its people but is actually whipping 
up, it is exacerbating the ethnic tensions, you then have a 
catastrophe. And we have seen this catastrophe play out 
geopolitically. We have seen it in humanitarian. We have seen 
the migrations. So all of those come together.
    So the climate is what I talk about as a link in a chain of 
events. If you have ever done an aircraft mishap investigation, 
many things come together, and climate is one of those pieces. 
But it also depends on what are the thresholds and what can be 
the society response?
    Mr. Moulton. Does America face a greater threat from Russia 
in the Northwest, in Alaska, because of climate change?
    Admiral Titley. I think threats are a combination of 
capability and intentions.
    Mr. Moulton. Because I can tell you that the commanding 
general of the base up there made it very clear to members of 
the Armed Services Committee that they do, that we do.
    Admiral Titley. He sees--yes. The Russians are certainly 
very active in the Arctic, and they continue to be active in 
the Arctic. And as that ice melts, there is a reason for that, 
because the economies and the shipping routes, at least 
seasonally, are ultimately going to move up there.
    Mr. Moulton. Do we think -
    Admiral Titley. It is going to be global -
    Mr. Moulton. What are the costs of the threats to 
installations like Parris Island, for example, where half the 
country's Marines are trained, due to climate change?
    Admiral Titley. If we do not take it into account, it is 
easily billions of dollars. We saw $8 billion of weather-
related disasters to the DOD installations just in 2017 alone.
    Mr. Moulton. So how do you explain the continued Republican 
attempts on the Armed Services Committee and in the full 
Congress to prohibit the Department of Defense from addressing 
climate change, from studying climate change, from even 
including it in their reports, when the Department of Defense 
clearly wants to address this?
    Admiral Titley. I think what is happening is I would say we 
are seeing a change in that, starting with the 2017 House 
Langevin amendment, which was approved by a then-Republican-
controlled House. I believe we are starting to see a change in 
that. Certainly a few years ago, yes, sir, we saw a lot of 
resistance. I think it is changing. I hope it is.
    Mr. Moulton. The scientists have been saying this for 
decades now, and Republicans are just now beginning to 
acknowledge it in the last couple years.
    Admiral Titley. Better late than never.
    Mr. Moulton. Well, I agree. My concern is that it is 
getting very, very, very late.
    Admiral Titley. There is a saying we use, that when you are 
flying an airplane, one of the things that is of no use is a 
runway behind you. We are putting a lot of runway behind us 
here.
    Mr. Moulton. Mr. Powell, I want to ask you about the role 
of nuclear power. What is the role of nuclear power in 
addressing climate change? My understanding is it is the single 
biggest source of carbon-free energy that we have today in 
America.
    Mr. Powell. First, thank you for the question and your 
attention to this issue. It is indeed the largest source of 
carbon-free generation in the United States today. It is more 
than 50 percent. So it is larger than all of the wind and all 
of the solar and all of the hydro and all of the biomass 
combined right now in the U.S.
    Into the future it is likely to remain a dominant source of 
clean energy. It is really the one source of clean energy we 
currently have that can operate 24/7 and with high resilience, 
even in very difficult conditions. And virtually every climate 
model that looks at how we would get to a zero emissions future 
has a very large role for both traditional and advanced nuclear 
energy.
    Mr. Moulton. How many Americans have died due to nuclear 
power accidents?
    Mr. Powell. I do not believe any Americans have died due to 
nuclear power accidents.
    Mr. Moulton. Do we have premature deaths due to coal-fired 
power plants through asthma and other things?
    Mr. Powell. Those emissions are contributors to premature 
deaths, yes.
    Mr. Moulton. Great. Thank you.
    Mr. Chairman, I yield back.
    Chairman Yarmuth. I thank the gentleman. His time is 
expired.
    I now recognize the gentleman from Missouri, Mr. Smith, for 
five minutes.
    Mr. Smith. Thank you, Mr. Chairman. Mr. Chairman, at the 
beginning of your opening statement, as the gentleman from 
Georgia referred to, you were talking about the Judiciary 
hearing that is going on in Rayburn. And you said that that 
committee hearing is based on--because the President has defied 
the laws of the country.
    Well, this Committee might need to do a hearing because 
there is this law called the Congressional Budget 
Accountability Act of 1974, and I would say that the Budget 
Committee in a Democrat-controlled Congress has not passed a 
budget according to the laws of the country. So I refer that 
maybe a hearing of defying the laws of the country should be 
done in this Committee.
    Tomorrow will mark 100 days, 100 days, since the deadline 
to complete a budget, defying the laws of the country. Tomorrow 
is 100 days. Under a Democrat majority, hearings on climate 
change are now more common at the Budget Committee than 
hearings on the actual budget. Sadly at this point, the budget 
process has mostly passed this Committee by.
    On the floor later this week, we will likely consider a 
two-year agreement that would increase spending by $320 
billion, less than one-quarter of which is offset. The 
agreement would raise the baseline for future spending by 
nearly $2 trillion. On top of that, with this new agreement, 
Democrats likely will not do a budget next year, either, 
further abandoning the sole responsibility of this Committee.
    That being said, I understand the reluctance of Democrat 
members of this Committee to talk about the Green New Deal--as 
I refer to as the Green New Disaster. But without a budget, the 
Green New Disaster is the only comprehensive plan Democrats 
have put forward to show their visions for this country.
    And it truly is a comprehensive vision--a statement from 
the office of one of the chief authors confirmed it--about it 
is more than climate change. ``It was not originally a climate 
thing at all. We really think of it as: How do you change the 
entire economy thing?''
    So 12 Democrat Members of this Committee are cosponsors of 
this resolution, which according to the authors is an economy-
altering vision. We do not have a budget for this year, and 
likely will not have one next year, either. With all that in 
mind, I do not see how we can avoid talking about the Green New 
Disaster. We cannot avoid talking about the fact that the 
estimated cost for household will be over $60,000 a year. In my 
general district, the median income household for a family of 
four is $40,000 a year. Think about that.
    Given that in 2017, U.S. carbon emissions were at their 
lowest since 1992 without eliminating air travel or cows, such 
as suggested by the Green New Disaster, and that China and 
India alone were responsible for almost half of the increase in 
global emissions that same year.
    I think my colleagues will agree that the cost hardly seems 
worth it. In fact, the EPA just released a report showing how 
much U.S. air quality has improved over the last 44 years. The 
findings show that during that time, emissions from the six 
common pollutants dropped by 74 percent, all while American 
energy consumption increased.
    Mr. Powell, Democrats preferred solutions, like the Green 
New Disaster or a carbon tax, would hit rural communities like 
the ones I represent very hard. If we have the move to 100 
percent renewables, what would that mean for consumers? How 
would that impact rural communities that I represent?
    Mr. Powell. I think you would first have to ask, 
Congressman, whether a move to 100 percent renewables is even 
possible. Many studies have shown that that is a virtually 
impossible proposition for our power sector. But if you did 
believe it was possible and the investments were required, it 
is likely that it would vary significantly--increased 
electricity prices, which is completely unnecessary when we 
think about getting the power grid down to very low emissions.
    We can leverage other technologies like advanced nuclear 
energy, fossils with carbon capture, grid scale storage, 
combined with some more renewables, and we can do it in a much 
cheaper fashion and a much more reliable fashion for consumers.
    Chairman Yarmuth. The gentleman's time is expired.
    I now recognize the gentleman from New Jersey, Mr. Sires, 
for five minutes.
    Mr. Sires. Good morning. Thank you, Chairman, and thank you 
to our witnesses for being here today.
    I represent a district in New Jersey across from the Empire 
State Building. Basically, it is the 8th District. It is a 
very, very complex district in terms of transportation network. 
And it is very susceptible to the rising sea levels.
    During Sandy, we got hit very, very hard. We are still 
feeling the impact of that. The Gateway Tunnel was flooded with 
salt water; now the cement on it has been eroded by the salt. 
This was supposed to be this once-in-a-century superstorm. 
There seems to be more than just one nowadays. We just got hit 
yesterday hard again with a big storm with a lot of floods in 
my district.
    So can you speak to the increase in water events which 
continue in similar manners? I mean, I assume that these are 
going to be more and more often, the kind of storms that we are 
going to be seeing.
    Admiral Titley. Thanks, sir. You are exactly right. This is 
one of the significant impacts of a changing climate, is as we 
warm the earth, we increase the water cycle. We supercharge it 
so that what might have been a one-in-100 or one-in-500 storm 
now becomes a one-in-20 or a one-in-50 storm.
    All over the country we are setting records for rainfall 
intensity, flash floods--I call them rain bombs--in which you 
talk to any local officials and they say, ``We have never seen 
this before.'' And then three years later they say, ``We have 
never seen it before,'' again.
    And these are the things that we are going to have to deal 
with in our infrastructure, and how do we build systems that 
can deal with these while at the same time--it is not either/or 
but while at the same time--looking ahead to try to bring down 
the CO<INF>2</INF> so this curve does not keep on going up 
because we are already seeing it going up.
    Mr. Sires. We spent billions of dollars after these 
disasters in trying to bring back the grids and the 
transportation systems. I must say that they are making some 
progress in terms of dealing with it. Now, instead of putting 
the switches on the floor, they are putting the switches on the 
ceiling. Even public service electric and gas is raising the 
generators. Before, they had it just covered with chain link 
fences. Can you imagine?
    So I am a strong supporter of pre-disaster mitigation. What 
can we do in areas like mine? I know people talk about a wall 
all along the river. Well, that does not really--residents do 
not really care for that because they like to look at their 
view of New York. And there have been millions and millions of 
dollars invested along the waterfront in my district, which is 
called the Gold Coast now. And I do not know if a wall would 
be--what else can be done? What kind of projects? How do we 
mitigate some of these things? Does anybody have an idea?
    Admiral Phillips. Thank you, Mr. Sires. And I will say that 
I was a part of the Navy's response to Hurricane Sandy in 
particular in your area, and so have some modest familiarity 
with the challenges that you are facing.
    What will be a challenge for your district as well as 
coastal Virginia is that we will have to come up with a range 
of solutions. And the challenge there for us, at least, is to 
understand what infrastructure is critical, and what 
infrastructure is critical that is also vulnerable to rising 
waters, and then evaluate, what are the best solutions? Are 
they hard solutions, which are costly and run the risk of not 
being high enough under some circumstances? Or are they softer 
solutions, green infrastructure solutions that will delay 
impacts over time?
    Or are they solutions where we restructure how our 
communities look, we move people away from the water, give them 
more elevation elsewhere, and give them different choices for 
how they live in an area where they clearly want to be, but in 
a way that is safer for them and less impactful on the 
infrastructure over time that will be required to harden them 
to allow them to remain in place right now?
    So there is a series of choices--the green choices, the 
hardening choices, and then there is always the option to 
restructure your community to relocate people so that they are 
not in harm's way all of the time or are in harm's way less of 
the time so that your infrastructure can support them.
    Mr. Sires. Thank you. My time is up, thank you.
    Chairman Yarmuth. The gentleman's time is expired.
    I now recognize the gentleman from Pennsylvania, Mr. 
Meuser, for five minutes.
    Mr. Meuser. Thank you, Mr. Chairman. Thank you all for 
being here with us, which is an important subject.
    It is a shame, however, to have an opening political 
statement made here professing as a fact that the President of 
the United States defied the law without any proof or due 
process. Such statements may lead some people here to think 
that some on this dais attended the Fidel Castro School of Law.
    But back to what we are here for, to discuss this important 
issue. The private sector, state government as well as county 
facilities, are already working to be very innovative and 
reduce emissions at their own pace. I find it to be a 
relatively rapid pace, and we are seeing the benefits.
    The U.S. is leading, according to some recent data and 
reports, reducing greenhouse gases more so than any other 
country that was in the data pool, which was quite a lot. This 
data is factual. In fact, China and India, who are part of the 
Paris climate accord, are responsible for almost half of the 
increases in global carbon emissions.
    So businesses in my district get it. It is a very positive 
thing for their employees, for the community. Along with it 
being a positive feel-good thing, it is saving them money. They 
are finding it to have some great efficiencies. As a matter of 
fact, Fort Indiantown Gap, a very large Army training facility 
in my district, home of the Pennsylvania National Guard in 
Lebanon County, uses both solar panels and geothermal HVAC for 
the system to lower costs and increase efficiencies in a high 
percentage of their overall energy use.
    So we must look at trends and be data-driven, realistic, 
and also be economically feasible in our solutions. And that is 
what we all should be here to try to find, solutions. So I 
would like to start, Mr. Powell, with you. Are you finding 
American business trends to be in line with what I am saying 
and become more efficient, more green, and more cost-effective?
    Mr. Powell. Well, first, thank you for the question. It is 
always great to discuss these issues with a fellow Northeastern 
Pennsylvanian.
    I think we are absolutely seeing remarkable commitments 
from the private sector on this. If you just take a look at the 
utility power generation sector alone, in the past year we have 
had a remarkable set of commitments from major utilities to get 
to 80 percent or even 100 percent emissions reductions by the 
middle of the century.
    If you look at companies like Xcel and AEP and Southern 
Company and many others, I think at this point the Edison 
Electric Institute estimates that its utility members will have 
decreased their emissions by 50 percent by 2030 through the use 
of new technology and through the switch from coal to natural 
gas in many cases.
    Mr. Meuser. So do you have data as to would whether or not 
the private sector or government mandates are making stronger 
strides?
    Mr. Powell. Well, right now, if you look at what has 
decarbonized the U.S. power sector in the past 10 years, it is 
down about 30 percent, and of that 30 percent reduction, about 
two-thirds of that does come from the switch of some coal to 
some natural gas. Most of that at this point is a market-driven 
private sector decision. It is just simply a better, cheaper 
technology to use natural gas.
    Now, that was because of significant federal investments in 
the natural gas space that were made in the 1980s and late 
1990s. There was a lot of federal basic and applied R&D, about 
$500 million through the Office of Fossil Energy, there was a 
public-private partnership with Mitchell Energy down in Texas, 
and there was about a $6 billion targeted tax incentive bill, 
the alternative production credit, which helped that industry 
scale up.
    But then we found this better mousetrap. We found a 
technology that was cleaner and cheaper and better-performing 
than the alternatives, and the private sector has picked it up.
    Mr. Meuser. By all means. And who would be against such 
public-private partnerships that actually do work out for the 
long term?
    Do you find something like the Green New Deal, a huge 
government multi-trillion-dollar mandate, to be something that 
will be worthwhile?
    Mr. Powell. When we think about climate policy, we think it 
has got to pass three tests: technical feasibility, political 
sustainability, and global impact. And unfortunately, I do not 
think the Green New Deal passes any of those tests.
    Mr. Meuser. Okay. And what countries are as focused as we 
are, as the United States is, on private sector innovation, and 
where the trends are equally positive?
    Mr. Powell. We are doing pretty well. There are not many 
countries doing better than us. I will say the United Kingdom 
has a pretty good track, and it is because they are pursuing an 
all-of-the-above clean energy approach. They have got a big 
program in renewables. They have got a big program in nuclear 
energy. They are experimenting with clean fossil fuels and 
carbon capture. They have a commitment to hydro power, 
especially in the North. They are using everything.
    Mr. Meuser. Thank you. Mr. Chairman, I yield.
    Chairman Yarmuth. The gentleman's time is expired.
    I now recognize the gentleman from California, Mr. Panetta, 
for five minutes.
    Mr. Panetta. Thank you, Mr. Chairman. I appreciate this 
opportunity.
    Ladies and gentlemen, thank you for your testimony and for 
your participation in this very important hearing, as well as 
your preparation for it. I know it has taken a lot for you to 
get here. But thank you very much for everything that you have 
done and will continue to do, especially in this area 
addressing climate change.
    Once again, my name is Jimmy Panetta. I am from the Central 
Coast of California, 20th congressional district, otherwise 
known, as many people will tell you that I often say, the salad 
bowl of the world. So we have a lot of agriculture. And I think 
it is clear that you understand how important agriculture is, 
especially in dealing with the effects of climate change and 
basically working to deal with that issue as well, and how they 
can contribute to reducing the carbon output when it comes to 
agriculture and certain steps that they can take.
    Obviously being an agriculture district, the Salinas Valley 
is very vulnerable as well, though, to climate change. At the 
same time, it is one of the few sectors that, like I said, has 
a potential for significant increases in carbon sequestration 
to offset greenhouse gas pollution. I think we understand, and 
clearly your testimony demonstrates, that we need to think 
about the adverse impacts on agriculture, along with the unique 
role that agriculture can play when it comes to addressing 
climate change.
    And so I will start with Ms. Grant. Along those lines, what 
is the potential for regenerative agriculture and new 
approaches to soil carbon management to simultaneously improve 
productivity and mitigate climate change?
    Ms. Grant. Thank you for the question. Regenerative 
agriculture is something that has actually been around for 
quite a while. It is not necessarily a new technology. If you 
want to go back, it is going back to some of the older 
practices that have been out there for a number of years, 
looking back to see what has worked and what has not.
    And it is really focused on not disturbing the soil, 
keeping roots and cover on the soil and making sure you do not 
have that erosion and that soil can actually keep the water in; 
if we get these huge rainfall events, that it can actually take 
the rain, pull it in, hold it in. So when you get the drought 
conditions in California, the water is there for the continued 
crops to grow and such like that. In addition then these are 
also pulling the soil--or the soil is able to hold more carbon, 
which, as you were referring to, can hold down that carbon and 
reduce--agriculture can be a really big, key player in all of 
this.
    Currently we are seeing a lot of issues around the sense of 
farmers--it is a new practice. It is different from what they 
have been used to. And it takes a really big mindset change for 
farmers to do this. So some of the regulations, crop insurance, 
is set up in such a way that it is not advantageous to make 
these. You could actually risk defaulting on your crop 
insurance by doing some of these practices, the way RMA 
regulates it today.
    And so those are a number of things we think getting 
farmers out there to understand it better, to work together, 
and learn from each other on it is a big key of this, and it is 
really a path forward, in our view.
    Mr. Panetta. In regards to that, how can, basically--I 
mean, obviously, having these types of discussions, getting 
them talking about it, the knowledge about it--in that sense, 
what role can the federal government play in order to further 
this conversation and actually lead to steps that our people in 
ag can take?
    Ms. Grant. The conservation title that was funded in the 
last Farm Bill took a step of the way there. But I think really 
focusing on being able for farmers to test out these 
practices--you are not going to go in and do all these 
practices on--if you have got a 500-acre farm, you are not 
going to do this on all 500 acres. Farmers want to go in and 
test this on 40 acres, test it out, see what works, learn from 
it, and then slowly expand it out.
    And so it is going to be a time and a process, so funding 
to be able to do that. Because I have had a farmer tell me for 
cover crops, for example--he was a second year of farming, and 
he told me, ``I do not want to try them because I am afraid I 
am going to screw up my cash crop.''
    So what we actually did is, as a company, we are funding 
the cost of the cover crops for two years for him to say, ``Go 
in and try it on 40 acres and we will cover that cost so you 
are not out at last the $40 an acre to try it. And you can 
learn from it and hopefully expand it on.''
    Those are the types of things--having the technical 
assistance for farmers to be able to understand that. So that 
is why funding the National Resource Conservation Service 
offices and the field offices, having people in those offices 
to help provide that technical assistance, providing the grants 
and the programs whether it is public-private partnerships, 
companies such as ourselves putting our own cost-share in on 
these, bringing together government--putting those together to 
help keep farmers whole as they try these and learn, and being 
able to take this.
    And the biggest thing that government can do is stop 
looking at this as a great conservation practice. ``This is a 
nice thing to do.'' No, these are good farming practices. And 
that is how the government should look at these, and that is 
how USDA should be talking about these instead of, ``Oh, it is 
a nice conservation practice to do.''
    Mr. Panetta. Fair enough. Thank you, Ms. Grant. Thanks to 
all the witnesses. I yield back.
    Chairman Yarmuth. The gentleman's time is expired.
    I now recognize the gentleman from Oklahoma, Mr. Hern, for 
five minutes.
    Mr. Hern. Thank you, Mr. Chairman, Ranking Member Womack, 
for having this hearing today. And I especially want to thank 
Admiral Phillips and Admiral Titley for your service beyond 
what you are doing today. Thank you for being engaged in 
protecting our country as we go forward.
    Climate change must be addressed without sacrificing our 
country's economic and fiscal well-being with destructive 
policies like the Green New Deal, with an undisputed cost of 
$93 trillion and a regressive carbon tax. And the socialist 
proposals that are included in that Green New Deal, as my 
colleagues have talked about, and the carbon tax, are causing 
devastating effects on energy reliability and economic growth.
    Not only would these proposals be a disaster for the 
economy, energy reliability, and our national security, they 
would cause American households to face skyrocketing utility 
bills. According to an MIT study, a 100 percent renewable 
energy grid would cost American households $150 to $300 per 
megawatt hour.
    In 2017, the average electric bill was $111. A fully 
renewable electricity system would require a 286 percent cost 
increase, resulting in electric bills up to $3,882 higher than 
their current average cost. This would adversely affect poor 
communities, who already have trouble paying their utility 
costs.
    Low-income households would be the hardest hit, as they 
already spend nearly three times as much of their income on 
electricity costs when compared to higher income households. 
Effectively, Democrat plans such as the carbon tax and Green 
New Deal would cause hardworking Americans to choose between 
the ability to feed their families or paying their utility 
bills and filling their car's gas tank, thereby doing 
irreversible damage to vulnerable communities.
    Furthermore, to achieve our clean energy goals, we should 
encourage innovation in the natural gas industry. Natural gas 
is far cleaner than coal and oil and has become extremely 
plentiful in America over the past decade. Natural gas is 
poised to become one of the world's most dominant energy 
sources, and has drastically cut Americans' emission levels to 
those not seen in decades.
    The United States is now the leading producer of natural 
gas in the world. Lowering regulatory hurdles to increase 
liquified natural gas exports would spur our nation's economy, 
meet global energy demand, and help other nations hit their 
climate goals with cleaner-burning natural gas, thereby 
lowering emissions globally, not just here at home. If 
Democrats really support lowering global emissions, they should 
also support the use of natural gas as it would help to achieve 
the environmental results that we all desire.
    That said, my questions are directed at you, Mr. Powell. Do 
you think natural gas--I think you stated this--but do you 
think natural gas is the solution to addressing climate change?
    Mr. Powell. I do. It has been the most important solution 
in the United States over the past decade.
    Mr. Hern. So what are the benefits?
    Mr. Powell. Well, a few: first, natural gas-fired power 
plants are simply cheaper to operate than most other power 
plants today, so they set the standard price in the wholesale 
power markets. And we appear to have a virtually infinite 
supply of low-cost natural gas in this country.
    Mr. Hern. So it would not surprise you--as my colleagues 
mentioned a minute ago, we are all used to asking these 
questions--while it may not have occurred in this Committee, 
because of every committee that we are on, we are all asking 
these questions across all committees and we are getting 
various answers, but answers that support the next conversation 
that I am going to talk to you about.
    Members across the aisle are trying to do everything 
possible to prevent, as an example, in the Permian Basin in 
Texas, to getting natural gas out of the ground and to our 
terminals in Houston by blocking pipelines, by preventing us 
from transporting on rail, and making it extraordinarily 
difficult. And the need of this is to get natural gas to 
container ships to get them to Europe, to get them to China, to 
help them also offset and lower their CO<INF>2</INF> emissions. 
Yet you would think they would want to be a part of that. 
Except it has been very distracting in trying to make that 
happen.
    How has natural gas affected U.S. emissions over time?
    Mr. Powell. So U.S. emissions are down about two-thirds in 
the power sector and about--sorry, about one-third in the power 
sector, and about two-thirds of that is from natural gas. But 
that does not even take into account the benefits they have 
had, to your point, from global exports.
    So when we send a shipment of LNG to Poland, for example, 
and help them start to transition their grid, or send a 
shipment to China and help them stop using so much coal just to 
heat their homes around Beijing, that is also a significant 
decrease to global emissions. We often do not get credit for 
that part of the picture as well.
    Mr. Hern. It also has a geopolitical problem. If you talk 
about Germany, the President addressed this in the NATO 
conversations. If you are buying natural gas from Russia, we 
should be able to supply that. We have a plentiful supply. So 
we can change those geopolitical positions if we are able to 
supply this very plentiful energy we have.
    I want to thank you for your answers. I want to thank all 
of you for being here today and addressing this issue. I think 
we have a free market, free enterprise solutions that we can 
continue to move through. The customers demand it. We will 
continue to evolve, as we have done in the past, and I really 
appreciate it. We do not need the holistic, dramatic changes 
that are being proposed on the other side.
    Mr. Chairman, I yield back.
    Chairman Yarmuth. The gentleman's time is expired.
    I now yield five minutes to the gentleman from Michigan, 
Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. And I thank the 
witnesses for your testimony and for being here.
    I am from Michigan. I represent a district in Michigan with 
119 miles of shoreline along the shore of Lake Huron. And so we 
see climate change through that lens. It is directly affecting 
the Great Lakes. That hurts Michigan's economy and that hurts 
our job growth.
    Increasing temperatures cause extreme weather, in our case, 
harmful algal blooms, and declining cold water fish populations 
have hurt tourism and our fishing industries. So there is a 
real economic impact. Furthermore, water level changes, severe 
water level changes, affect trade and shipping as cargo ships 
have to adjust their trips within the lakes. So I believe that 
for the people I represent, we actually have to do a lot more. 
I do hear a lot of folks say that in general we need to do 
something about it, but seem to object to every specific 
suggestion that comes up.
    I think one area where we can do a lot more is 
incentivizing both individual and business behavior through the 
tax code. We have focused a lot on credits, tax credits, for 
renewable energy development and encouraging energy efficiency 
through pushing for cleaner vehicles because the transportation 
sector is the largest source of greenhouse gas emissions in the 
U.S., which is obviously a direct driver of climate change.
    So one way to reduce these greenhouse gases and their 
impact on the environment is incentivizing more people to drive 
electric vehicles, for example, thus reducing their pollutants 
and negative health impacts from the exhaust from carbon-based 
vehicles.
    So that is one of the reasons that I have taken action to 
introduce legislation, the Driving America Forward Act, which 
has both support from environmental and health groups as well 
as auto companies, to incentive more electric vehicles.
    So I have a question because very often we focus on the 
price of policy, and there has been some pushback even on the 
efforts that I have around electric vehicles because there is a 
price to it. So I guess I have a question for Dr. Benjamin.
    If you could address--and you may have already touched upon 
this; we have got a lot going on today, as you might know, we 
have been coming and going--but if you could talk about the 
negative health impacts that are traceable to emissions from 
gasoline vehicles, especially in vulnerable populations.
    Dr. Benjamin. It is really a challenge. I grew up in 
Chicago, and when I was growing up we had all the projects 
living right along the Dan Ryan Expressway. And we now know 
that those populations were at extraordinary risk from the 
particulate matter and the emissions from cars.
    It results in problems with women in pregnancy. It results 
in challenges for children, low birth weight babies, a whole 
range of activity around lung function and lung development 
that occurs.
    Mr. Kildee. So exposure to those emissions obviously has a 
health implication that affects everyone who is exposed to it. 
But in many cases, it disproportionately affects people who are 
already living in challenged circumstances, particularly in 
poverty?
    Dr. Benjamin. Yes. The closer you are, the more you are 
impacted. And those places tend to be in communities of--low-
income communities.
    Mr. Kildee. So this gets to the issue of the price of 
something versus the cost of not doing anything. There is a 
cost associated--there is a human cost obviously associated 
with those health implications that you cannot put a dollar 
figure on. But you can put a dollar figure on some of it. I am 
not asking you to give me a precise number, but just to 
speculate on the fact that there are costs associated with 
emissions that impact health in human beings that society, and 
for that matter government, actually bears. Would you agree 
with that?
    Dr. Benjamin. It is billions of dollars, and we pay for it 
through our insurance, health insurance dollars, each and every 
day.
    Mr. Kildee. So we really all pay for the implication. We 
pay for the fact that we are not doing enough to stem emissions 
that have health implications. It would seem logical to accept 
the fact that there is going to have to be some kind of a way 
that we minimize those emissions even if there is a price 
associated with it. The net effect is certainly worth the 
investment. Would you agree with that?
    Dr. Benjamin. It is always more expensive to take care of 
someone who is sick than taking care of someone who is well. 
But the best way to reduce costs in the Medicare program is not 
to put sick people in it to begin with.
    Mr. Kildee. Well, thank you very much. I thank the 
witnesses for your testimony. I thank the Chairman for holding 
this hearing. And I yield back.
    Chairman Yarmuth. The gentleman's time is expired.
    I now recognize the gentleman from Texas, Mr. Crenshaw, for 
five minutes.
    Mr. Crenshaw. Thank you, Mr. Chairman. And thank you all 
for being here. Some really knowledgeable people in here 
telling us some very good information. And a lot of it we 
already know: Climate change is real and we need to address it. 
And the question is, how do we do that and what is next?
    We have proven ways of decreasing emissions--decreasing 
costs, increasing access, and increasing our GDP all at the 
same time. We have talked about some of those already. I think 
we should support all ways of decreasing emissions, from 
traditional renewables to cleaned-up fossil fuels to nuclear to 
innovative new tech like carbon capture.
    The other side often would make us think that there is only 
one way to address it--solar, wind, Green New Deal, which 
really is not a climate solution at all, even by the admission 
of its own authors. It is a socialist takeover of the economy, 
as they stated.
    We should be talking about actual solutions. Solutions to 
climate change are not all or nothing. It is all of the above. 
It is not one solution, it is many. We are the party of 
solutions, and a truly sustainable clean energy plan is the sum 
of many solutions, not one at the cost of all others, to 
include economic growth.
    I want to talk about the legislation we recently dropped 
last week, the LEADING Act. Carbon capture is one of these 
clean energy solutions. It takes the emissions created by power 
generation and it captures them. The beautiful thing is here in 
America, we actually have a market for that waste, the waste 
being carbon. There are already companies buying and selling 
carbon dioxide for energy production, for manufacturing, for 
construction, for food and drink, and now even for new forms of 
plastic that are biodegradable.
    So rather than eliminating our main power source, which is 
fossil fuels, we have found a way to, one, make them clean, 
two, keep them cheap, and three, use the waste. NET Power--this 
is a plant in Houston--is a natural gas power plant near 
Houston. It does this very thing. It captures the carbon 
produced from power generation, uses the carbon to power the 
plant, and then sells the rest, or actually recycling it.
    So rather than selling and trading vouchers for how much 
carbon you have produced, essentially the cap and trade system, 
NET Power is selling carbon itself. It is reducing emissions, 
keeping energy cheap, exporting this technology to the biggest 
emitters--China and India. This is one of the reasons that Mr. 
Flores and I introduced the LEADING Act, putting more money 
into carbon capture R&D specifically for natural gas power 
plants.
    I want to start with Mr. Powell. In your testimony you 
discussed the broad suite of policies--innovation investments, 
financing, regulatory reform, a 45Q tax credit, plus LEADING 
Act seems like that type of package. What else can we do to 
accelerate carbon capture technologies?
    Mr. Powell. Well, first, Congressman, thank you for your 
leadership on the LEADING Act and your cosponsorship of the USE 
IT Act, also an important measure in the carbon capture space, 
and the BEST Act, an important measure in the energy innovation 
space. I think you are leading across a whole suite of clean 
innovation in these technologies.
    When we think about carbon capture, right, probably the 
most the most important thing we do after, first the passage of 
the 45Q tax credit by the last Congress, which is a very 
significant new incentive for this technology, and the 
demonstrations of new natural gas power plants that would be 
done by the LEADING Act, I think the next most important thing 
we have to make sure is that these things are all implemented 
correctly.
    So the regulations, for example, around how the 45Q credit 
can be captured, we need to make sure that the monitoring, 
reporting, and verification rules--we are getting deep into the 
IRS and EPA regs--but making sure that those are done well so 
that as broad a swath of companies as possible can take 
advantage of those incentives.
    Mr. Crenshaw. I appreciate that. And I guess along those 
same lines, can you briefly touch on why NET Power could be 
such a game-changer? Is this the type of technology that we 
must commercialize to offer the developing world both clean and 
cheap energy?
    Mr. Powell. Absolutely. If you think about NET Power, they 
have completely reinvented carbon capture. They have turned the 
carbon from a bug into a feature of the cycle.
    Mr. Crenshaw. Right.
    Mr. Powell. And so some other amazing things about that 
technology, not only is it about as cheap as a traditional 
natural gas power plant, so basically it is no additional cost 
for something that is zero emissions, not only does it give you 
this stream of CO<INF>2</INF> that is already at pressure, 
which you can sell for enhanced oil recovery or other things, 
but because it never uses water in the first place, it is a 
thermal power plant that does not use any water.
    Mr. Crenshaw. Right.
    Mr. Powell. That is an extraordinary thing. You could put 
it in the middle of a big city. It has no other air emissions 
like NOX or SOX.
    Mr. Crenshaw. Right.
    Mr. Powell. You could put it in the middle of a non-
attainment zone. That is a game-changer.
    Mr. Crenshaw. And I think it is important to note that it 
is a game-changer for 100 percent of the problem. When you are 
talking about the Green New Deal, you are talking about 15 
percent of the problem because the U.S. emits 15 percent of 
emissions. Well, when you are talking about carbon dioxide 
emissions, you have to focus on the entire globe. And new 
technology coming out of the greatest innovation machine the 
world has ever known, which is the United States of America, 
that is how we fix this problem, 100 percent of the problem.
    Thank you.
    Chairman Yarmuth. The gentleman's time is expired.
    I now recognize the gentleman from New York, Mr. Morelle, 
for five minutes.
    Mr. Morelle. Thank you, Mr. Chairman. And I do want to 
thank you for holding this hearing. This is the second hearing 
on the budgetary impacts of climate change, and I cannot 
imagine a more important topic. So I want to thank you.
    I want to thank all the witnesses, who I think have added a 
great deal to our understanding of the challenges that we face.
    I would associate my remarks similar to what Mr. Kildee 
did. I represent Rochester, New York, which is on the southern 
shore of Lake Ontario, and during the last hearing focused a 
number of my comments and questions related to resiliency. We 
do an awful lot using federal and state dollars to deal with 
the disaster after it has happened, as people have talked 
about, and I appreciate in particular your comments, Admiral 
Phillips, on the need to build resiliency, mitigation.
    We need to be forward-thinking. And I often say that when 
it comes to these types of natural disasters, and I am on an 
interior coast, that it is not a question of if but when. And 
we are seeing, obviously, hundred-year storms happening with 
greater regularity. So I appreciate that, and I did talk about 
that in the last one.
    I wanted to talk a little bit today about some of the 
health impacts, particularly the public health impacts. And 
perhaps Dr. Benjamin, like Mr. Kildee--one of the lakes in my 
community, Hemlock Lake in Upstate New York, which is the 
primary source of drinking water for the City of Rochester, has 
now reported blue-green algae blooms for the third time in as 
many years.
    I wonder, and I am not sure, I must admit, as a lay person, 
what the potential impact is of green algae blooms in drinking 
water or water supplies. Can you comment on that?
    Dr. Benjamin. Sure. It has a range of impacts. Number one, 
you cannot drink the water. Number two, you cannot swim in the 
water. And then your state or local health department has to go 
out there, of course, and engage at some cost to test the 
water, make sure it is clean. And then there are obviously 
activities to try to make sure that the water is safe for 
people to utilize. So it is----
    Mr. Morelle. And that is--may I interrupt? And that is 
because of the toxicity of the----
    Dr. Benjamin. It is because of the toxicity of the algae 
bloom.
    Mr. Morelle.----of that particular algae. I appreciate 
that.
    Dr. Benjamin. It depends which one it is. But yeah.
    Mr. Morelle. Correct. You mentioned, too, the cost of 
asthma. And I wondered. You mentioned a number, and I 
apologize--I was looking through your testimony to see if I 
could grab it. I thought you said $56 billion. Is that right? I 
am sorry.
    Dr. Benjamin. That was for all of healthcare costs. That is 
a Chris Ebbey study. But the asthma one--I will get it back to 
you. I have to find it in my testimony.
    Mr. Morelle. Okay. Yes. It was a significant number.
    I wondered whether or not you have looked at that trend 
line over the last several decades and whether the incidence of 
childhood asthma and other respiratory illnesses have changed 
dramatically and whether you link those directly to changes in 
climate. Is there data which supports that?
    Dr. Benjamin. Yes. Well, the asthma number is $56 billion, 
but that is for all asthma.
    Mr. Morelle. Okay. That is right.
    Dr. Benjamin. We know that the incidence of asthma is 
growing, and is growing for a variety of reasons. But certainly 
climate change and increase in pollen is certainly one of them.
    Mr. Morelle. Gotcha. The other thing I wanted to ask about, 
in Upstate New York, one of the things that is gaining 
significant attention over the last decade, and I do not 
remember this growing up in Upstate New York, but is the 
incidence of Lyme disease and neurological impacts of Lyme 
disease, which are becoming more and more talked about? I 
wonder if you could talk about that.
    And I understand it has something to do with the migratory 
patterns of ticks as they move further south as the 
temperatures increase. I wonder if you could comment on--if you 
have any information relative to the patterns of ticks, and 
also whether there are changes in the acuity of Lyme disease 
over time as well.
    Dr. Benjamin. Sure. We are seeing a couple of patterns. 
Number one, we are seeing the environments in which tick-borne 
diseases occur changing as we are getting wetter and warmer. 
And so we are seeing a lot of the mosquito-borne diseases, that 
occurred primarily in warm parts of the country, move up and 
out.
    If you simply just remember the West Nile virus outbreak 
that we had and you just follow that pattern, New York, down 
the coast of the United States, and then westward. We are now 
seeing dengue, malaria, and other things that have not really 
usually impacted the United States now going upward, and that 
is because we are getting wetter and warmer and our seasons are 
changing. And so we are going to see more and more of those 
exposures to people with the resulting health impacts.
    Lyme disease is a little complicated in a variety of ways. 
Number one, while this was not really that difficult to 
diagnose, it is often missed for a whole range of reasons. And 
it is also easy to treat, but again, we prefer not to have to 
treat it in the first place.
    Mr. Morelle. Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time is expired.
    I now recognize the gentleman from Tennessee, Mr. Burchett, 
for five minutes.
    Mr. Burchett. Thank you, Mr. Chairman, Ranking Member. I 
appreciate you all being here.
    As I mentioned in previous hearings this Committee held on 
climate change, East Tennessee, I feel like, is leading the way 
with nuclear energy, or nuclear energy, whichever the case may 
be. I believe that nuclear power is one of the best ways to 
reduce our carbon footprint while also being fiscally 
responsible.
    One piece of nuclear technology I am fascinated with is 
small modular reactors. Mr. Powell, are you familiar with small 
modular reactors?
    Mr. Powell. First, let me recognize the great state of 
Tennessee's strong leadership in nuclear energy innovation with 
the Oak Ridge National Laboratory.
    Mr. Burchett. I will take full credit for it, and I have 
nothing to do with it.
    [Laughter.]
    Mr. Burchett. Other than my father was on Okinawa and they 
were fixing to invade Japan and they dropped the bombs.
    Mr. Powell. I think you should take full credit. Yes, I am 
very familiar----
    Mr. Burchett. And I will. Thank you. I will. This town is 
full of people taking credit for something they had absolutely 
nothing to do with, and I will step right in front of that line 
then. Thank you, sir.
    [Laughter.]
    Mr. Burchett. I suspect that will make the news since there 
is nothing else going on at the Capitol today.
    Well, could you tell me where you stand with this 
technology?
    Mr. Powell. Strongly supportive of small modular reactors 
or SMRs. They will be a game-changer for nuclear the way 
something like NET Power is for natural gas.
    Mr. Burchett. Yes, sir. And ma'am--this is not in my notes 
and it always makes my staff nervous, and I am sure that they 
are in my office crowding around the television: ``Uh-oh, what 
is he getting ready to say?'' But I am an organic gardener. 
Mainly my groundhogs ended up eating all my produce this year 
because I have not been home.
    But I wish you would comment on the fact that I think that 
all of us can do something. There are some young folks in here. 
And I compost. I compost over half of our waste stream. I hate 
to call it ``waste stream'' because it is really not. They are 
biodegradable. God put all this bacteria in the world that can 
change it into something wonderful, and the worms do the rest 
of it.
    And I would hope that you would encourage folks--maybe if 
you could say something to these young people about, we can do 
something. Congress is not going to do anything. We are going 
to sit up here and have all these crazy hearings, and it is 
just like that TV show on Netflix about--what is it? What is 
the name of that show? ``House of Cards.'' It is just like 
that, except on that TV show they actually pass some meaningful 
legislation. I do not expect this Congress to do anything. But 
I wish you would comment on that--not on Netflix, but on the 
other.
    [Laughter.]
    Ms. Grant. That is good because I have to admit I have 
never actually watched the show.
    Mr. Burchett. It is good.
    Ms. Grant. Much to my husband's chagrin, probably.
    Absolutely everyone can do something, and it is all 
starting small. It is in our back yards. It is in our own 
gardens and what we do. I also compost at home, and that goes 
into my garden that is pathetic as ever also with that.
    But we actually do support a lot of urban gardening also, 
and trying to get that into the inner cities, and trying to 
make sure that it's not just the rural America. But everybody 
needs to be able to experience and have access to healthy, 
nutritious food.
    Mr. Burchett. And when we set stuff on the curb, and I rail 
on this all the time, but it goes to the landfill, and it 
decomposes anaerobically in the absence of oxygen, and it puts 
off a very harmful gas, which is methane. And when you compost 
it aerobically in your back yard, there are some gases but it 
is not quite as much detriment to the environment. So I would 
hope you all would encourage that in everything you do.
    Ms. Grant. Thank you.
    Mr. Burchett. Yes, sir? I am sorry. Yes, sir?
    Admiral Titley. I would just say, sir, a plug for where I 
live in Central Pennsylvania and State College. We have 
curbside organic composting. We just throw it all in one bin, 
and it actually does get composted, not thrown into the 
landfill. And maybe there is some way of encouraging more 
communities to do the same. It is so easy, even I can do it.
    Mr. Burchett. Yes, sir. Well, I appreciate that, and as I 
have encouraged some of my friends across the aisle that maybe 
sometimes the big government approach is not the best. I like 
it in the hands of us regular folks. But I appreciate that, and 
I appreciate all the folks up here that served our country. 
Thank you all very much.
    And I will yield back the rest of my time, Mr. Chairman.
    Chairman Yarmuth. I thank the gentleman. I am just so sad 
to see that you have become so cynical in such a short period 
of time.
    [Laughter.]
    Mr. Burchett. Yes, sir. Well, no. I came up here cynical, 
sir. The biggest surprise I had when I got up here was that I 
was not surprised.
    Chairman Yarmuth. I appreciate the gentleman.
    Mr. Burchett. Thank you, sir.
    Chairman Yarmuth. I now recognize the gentleman from North 
Carolina, Mr. Price, for five minutes.
    Mr. Price. Thank you, Mr. Chairman. And thanks to this 
panel.
    Ms. Grant, as the business person in the group and someone 
who knows about the national and international business 
community, I am going to direct this to you, but invite others 
to chime in.
    In our politics, we often use the term ``special 
interests,'' and it is often used in a negative way. We often 
are referring to business interests or other interests that 
supposedly control our politics. But when it comes to climate 
change, it strikes me that that narrative does not quite do the 
job. And I want to ask you about that.
    Businesses have not asked for a lot of the anti-
environmental measures that this Administration has taken. In 
fact, the vast majority of businesses seem to be committed to 
tackling climate change; 189 of the U.S.' largest companies 
have committed to go 100 percent renewable by 2050 at the 
latest.
    After Donald Trump decided to pull out of the Paris Accord, 
Unilever, along with a diverse coalition of companies including 
BP, PG&E, General Mills, Walmart, Microsoft, all urged 
President Trump to stay in the accord. And for that matter, the 
auto manufacturers did not ask for a reduction in fuel 
efficiency standards, or they certainly were not the ones 
driving that. Many energy companies, many power companies, did 
not request the rollback of the Clean Power Plan.
    So what is going on exactly? The special interest narrative 
does not quite do it. My understanding is that businesses want 
certainty, certainty provided by a governmental reliance on 
sound science and thoughtfully implemented regulations, where 
the path forward is clear. But at every turn, Trump's actions 
have created uncertainty. Capricious trade tactics. Dismantling 
of environmental protections. The rejection of science and 
international cooperation. All of these have significant 
implications for how industries address climate change and 
succeed in a global economy.
    So that is my question to you. Do you think this is just a 
matter of special interests? Is he listening to businesses, 
even, when he crafts these policies? If not, what possibly is 
driving these actions, and how has the uncertainty created by 
Trump made it more expensive, more difficult, for businesses 
like Unilever to meet your climate goals, to compete 
internationally, to effectively enact preventive measures?
    Ms. Grant. There is a lot in that question, Congressman. 
Climate change for us, and I think for most businesses, if you 
sit down and look at it, it is a risk to our ability to 
continue operating. We look at this on an annual basis, and we 
constantly review, consider and assess, and we have even run 
high-level assessments on a two degree Celsius warming or a 
four degree Celsius global warming scenarios. What does that do 
for our business?
    And agreed, you will see us--we are members of Ceres. We 
are still in the Sustainable Food Policy Alliance. And we are 
all saying, ``Something needs to be done.'' We are pushing 
government to do it.
    We will continue to push and do as much as we can. But to 
your point, we need a--definitely, we ask government to put a 
policy out there. Tell us where you want us to be and help us 
get there. We cannot all do it by ourselves, but in the 
meantime, we will take the lead on it.
    Mr. Price. Do you have any plausible explanation for why 
the views of the business community were so blithely ignored in 
this instance?
    Ms. Grant. I have no idea, Congressman.
    Mr. Price. Anybody else?
    Dr. Benjamin. Well, it is clear that at least the American 
Public Health Association has opposed every single one of the 
regulatory rollbacks that the Environmental Protection Agency 
has done. And we do not have a clue why they are doing it. It 
makes no sense, but they certainly have not listened to the 
public health communities voice and the health communities 
voice on this.
    And quite frankly, we have had this--we are seeing them in 
court because we do think it is a threat to their health. And 
we also recognize that we are a special interest, but our 
special interest is your health. And that is not a partisan 
issue.
    Mr. Price. Thank you. Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time is expired.
    I now recognize the gentleman from California, Mr. Khanna, 
for five minutes.
    Mr. Khanna. Thank you, Mr. Chairman.
    I was struck, Mr. Powell, when you were asked about who our 
competitor for renewable energy may be, that you cited Greater 
Britain. And I was wondering whether that was stuck in the 19th 
century as opposed to the 21st century, or maybe you were 
energized by Prime Minister Johnson's ``We are going to rally 
the country, dude'' speech.
    But when you look at the statistics, Britain has got, what, 
about a $2.5 trillion GDP. China has a $12 trillion GDP. China 
is at about 60 percent of solar capacity, 50 percent of 
electric vehicle capacity, probably our biggest competitor, the 
only country that is ahead of the United States. And then you 
may have India, with the growth. And then the entire European 
Union. Britain is below those three countries.
    So do you not think that the real competition for the 
United States is not Britain or a peer competitor, but it is 
China?
    Mr. Powell. Certainly China is our competitor in exports of 
these technologies to the rest of the world. They have 
recognized that technologies like solar and like electric 
vehicles will, in the future, have a significant global market 
and geopolitical advantage, and they have decided to invest 
deeply in those technologies to gain an edge ahead of the 
United States.
    I would argue now that our national priority ought to be 
identifying the next suite of technologies where we can get 
back ahead. It is hard for me to believe we can catch China in 
manufacturing solar panels, but maybe we can get ahead in next 
generation solar, like perovskites, that are actually being 
tested and printed in Upstate New York.
    Mr. Khanna. Do you think one bipartisan goal for the 
country should be that we seek to win the clean energy race, 
just like after Sputnik we wanted to make sure America was 
number one in the space race? Even if we may have disagreements 
on climate change, do you think there is any person in this 
country who would not want to make sure that America led these 
industries of the future and not China?
    Mr. Powell. I have not met that person. I think that that 
would be a worthy bipartisan goal.
    Mr. Khanna. Thank you.
    Admiral Titley, thank you for your service and your 
constructive comments today. I know that the military has 
always been at the forefront of innovation, and currently there 
is a 25 percent target for renewable energy by 2025. What do 
you think if we upped that standard to 50 percent or some 
higher number? Do you think that our military could actually 
help be more aggressive in helping us meet these challenges?
    Admiral Titley. Thanks for the question, Congressman. I 
think the military can really help, certainly, within the 
interagency process of helping the entire federal government, 
both executive and legislative branches, understand that we 
need a global solution for this issue. Because otherwise the 
military is going to keep getting called on more and more to do 
more and more things, which is going to cost our budget, our 
taxpayers, more and more money.
    So where it makes sense, and we have seen numerous examples 
of this where it makes cost-effective sense for the military to 
increase its use and usage and development of renewable 
energies, of so-called green energies. And I would actually 
prefer to say non-carbon energies because I think there is a 
lot of use for small, modular reactors in certain military 
situations. So let's say non-carbon energies. That makes 
tremendous sense.
    Having the military spend a whole ton of money--let's say 
it should maybe be more on the Department of Energy side, 
developing say some sort of non-carbon-based fuel. Give that to 
ARPA-E. Put the money in ARPA-E's budget. Give them the 
mission. Hold them accountable. And then, as that technology 
matures, both military and civilians can use that, that kind of 
technology. That is how I would do it.
    Mr. Khanna. You think we should be increasing ARPA-E's 
budget and funding?
    Admiral Titley. Absolutely. What are they right now? About 
$150 million?
    Mr. Khanna. Yes.
    Admiral Titley. Okay. Add two zeroes. I am serious. Add two 
zeroes. Are we serious about this problem or not? When I look 
at the triple----
    Mr. Khanna. Would you argue that would be in our national 
security interest?
    Admiral Titley. Absolutely. It would be absolutely in----
    Mr. Khanna. And why would it?
    Admiral Titley. I am sorry?
    Mr. Khanna. Just explaining to folks, why do you think--I 
agree with you. But why do you think it would be in our 
national security interest?
    Admiral Titley. Very simply, because if we can, not only in 
the U.S. but then export that to the world to buy down this 
risk of climate change, we buy down a lot of potential 
stressors for instability, which means that our military has 
the potential of being used less. And I have yet to meet anyone 
in the military who wants us to be used more.
    Mr. Khanna. Thank you. Thank you for your service.
    Admiral Titley. Thank you.
    Chairman Yarmuth. The gentleman's time is expired.
    I now recognize the gentleman from South Carolina, Mr. 
Timmons, for five minutes.
    Mr. Timmons. Thank you, Mr. Chairman.
    It has been an honor to serve in Congress. Being on the 
Budget Committee is something that I was actually excited 
about. Not many people say that, by the way. So I ran--one of 
the number one reasons I ran for Congress was debt. Twenty-two 
trillion dollars, I said it time and again on the campaign 
trail, and it resonated in my district. It was literally 
probably the most important issue.
    And I want to back up real quick--and I used this on the 
campaign trail, too--in 2010 the Chairman of the Joint Chiefs 
of Staff, Admiral Michael Mullen, said to Congress--he 
testified that the number one national security threat facing 
our country was Congress' inability to spend within its means. 
At that point, we had $13 trillion of debt. It is nine years 
ago.
    So I guess my first question is to Admiral Titley: Was he 
wrong? Do you agree or disagree with him?
    Admiral Titley. I am not going to comment on Admiral 
Mullen. I think the challenge for the Congress and for the 
federal part is to balance--this is what you guys get paid for, 
this is your day job--to balance these multiple problems, 
whether it is climate change, whether it is migration, whether 
it is federal spending, and put those three--those types of 
issues together.
    I think whenever we try to make everything just solely one 
issue at the expense of everything else, we usually lose focus 
there. It is, frankly, above my pay grade to figure out what 
the right level of debt is. We seem to be very concerned about 
debt, and then we have a Republican Administration that passes 
a huge tax cut. So this is way above my pay grade, as far as 
figuring this out.
    Mr. Timmons. So you know whose job it is, though? It is 
actually the Budget Committee's job. And here we are. I get to 
vote on my first major spending bill, two years of spending, 
which is likely going to pass. It never received a hearing in 
this room. We never talked about it.
    So it is likely going to pass. I will just concede it. In 
2011, Congress did just that. They said, all right, $13 
trillion is a lot of debt. That is too much. So they passed a 
budget caps agreement to limit spending over the next decade. 
This expires in 2021, which again, when we vote on the spending 
bill this week, will literally end the budget caps agreement.
    So we are going to be--10 years after Congress said, we 
have a problem; we are spending more money than we should, and 
they took steps, what was accomplished? We doubled our national 
debt. So we are going to have $25 or $26 trillion in debt at 
the end of this.
    I am voting no this week. It is literally the number one 
issue I ran on. Debt, deficit spending, we need to get it under 
control. I do not care whose fault it is. I do not care if it 
is the Republicans' fault, the Democrats' fault. They are 
probably both to blame. It is immoral--just like it is immoral 
to give an environment that is degraded to my children and my 
grandchildren, it is equally if not more immoral to not have a 
country to give my children, my grandchildren.
    We are running out of time. The one good thing about this 
budget deal that we are about to do is that we have two years 
to figure out how we are going to right the ship, how we are 
going to get our spending under control. What changes have to 
be made? And we got to find the courage to do it. We have to 
find the courage within this Committee, within this Congress--
well, within the 117th Congress--to figure out what acceptable 
debt is.
    I mean, that is a great question. If at the end of this 
proposed deal we are voting on this week they said, ``But this 
is the most we are going to borrow,'' or ``This is how we are 
going to get back within a reasonable amount of debt''--just 
any plan, any kind of plan.
    But unfortunately, plans require courage. And there is no 
way to fix this problem without having a little bit of courage. 
Probably a lot of courage. So the fact that we are here having 
our second hearing on climate change on the House Budget 
Committee that never did a hearing on the budget we are voting 
for this week is literally everything wrong with Washington.
    And we have to rise above it if we are going to save our 
country. I am here to work, and I will work with anyone that is 
willing. And with that, I will yield back my time.
    Chairman Yarmuth. The gentleman's time is expired.
    I now recognize the gentlewoman from Minnesota, Ms. Omar, 
for five minutes.
    Ms. Omar. Thank you, Chairman.
    I think saving our country means that we give care and 
concern to the health and the well-being of the people who live 
in the country. And so Dr. Benjamin, I wanted to talk to you a 
little bit about your testimony in regards to how climate 
change is affecting our health.
    You talked about how if left unchecked it could increase 
illnesses and possibly cause death. The Fourth National Climate 
Assessment, released last year, outlined many ways that climate 
change is and will continue to impair the quality and 
availability of drinking water supplies in the United States. 
It found that service water qualities are already declining as 
temperature increases and heavy rainfall mobilizes pollutants.
    Other reports have found that sodium chloride in salt that 
is used to deice roads has been found to cause lead to remove 
from home piping, and the Minnesota Department of Health found 
that removing all lead from drinking water infrastructure in my 
home state could cost just over $4 billion over the next 20 
years. But it will save us $8 billion. That would be the 
benefit to the public health and its economy.
    So I am wondering if you can speak to a little bit about 
how climate change will affect lead in our water. And should we 
expect more crises like this, the kind of crises that we are 
seeing in Flint?
    Dr. Benjamin. Congresswoman, thank you very much. And thank 
you for your leadership on so many issues. Let me say that the 
one thing that keeps me up at night of all these climate change 
issues is water. It is about too much, it is about too little, 
and it is about contamination in both.
    And I know that this Committee at some point is going to 
have to have a serious discussion about infrastructure. And if 
you think about all of our central cities and all the 
challenges we have in our central cities, our piping is--the 
fact that you can turn your water pipe on and get clean water, 
hopefully that is safe for each and every one of us is one of 
our marvels of human society. And that is at extraordinary 
risk.
    The politics of the issues in Flint, Michigan aside, it was 
fundamental failure of a range of things around technology, the 
public health system. But it also showed the failure and aging 
of our infrastructure. We have that same problem in every 
central city. It does not get the press that it got in Flint, 
Michigan, but we have got to change all the piping. We have got 
to have the resources to do that.
    And as we are beginning to look at infrastructure, 
investment in infrastructure, we have got to figure out how to 
do that more smartly so that every time a person turns on that 
water in their faucet, it will be safe and effective. And then 
folks in our rural communities have also significant challenges 
with well water, which is not regulated as well in many ways as 
it needs to be.
    Ms. Omar. I am constantly surprised that we are having 
conversations about clean water and access to clean water in 
the United States. I spent four years in a refugee camp boiling 
dirty water, trying to make sure that it did not make us sick. 
And every day I am saddened that we are now living in one of 
the richest countries in the world, and there are people having 
conversations about if they can drink the water, and if their 
kids in school might get sick because they might not know 
whether to drink the water or not.
    Admiral, you are right. It is not about focusing on one 
particular thing. It is about making sure that we give care and 
concern to all of the issues that are impacting us. And I hope 
that we make a decision on when do we care about the deficit? 
Do we care about the deficit when we are giving tax cuts to 
billionaires, or giving welfare subsidies to the fossil fuel 
industry?
    Or do we care about deficits when we are investing in 
infrastructure and improving our water systems, when we are 
providing healthcare to our most vulnerable, when we are 
feeding our children and having proper schooling, or caring for 
our veterans so they are not homeless and sleeping on the side 
of the roads.
    And so care and concern is something that should be a 
priority for all of us as we take an oath to protect and serve. 
And so I really do appreciate you all coming here and making 
sure that we give care and concern to protecting everyone in 
this country and providing health and security for all.
    Thank you. I yield back.
    Chairman Yarmuth. The gentlewoman's time is expired.
    I now recognize the gentleman from Ohio, Mr. Johnson, for 
five minutes.
    Mr. Johnson. Thank you, Mr. Chairman. And I appreciate the 
panel being here. I apologize for running back and forth. I 
actually have conflicting hearings today. I am on Energy and 
Commerce; the committee that actually has jurisdiction over 
this issue is having a hearing today on decarbonization and how 
we address that. I wish this Committee would focus on its 
responsibility to develop a budget. But here we are.
    Mr. Powell, in your testimony you mention the national 
security importance of U.S. nuclear power leadership. As you 
may know, Ohio is home to multiple civilian nuclear facilities 
like the future Piketon High Assay Low Enriched Uranium 
demonstration project. Accelerating technological innovation is 
important for global security, economic growth and our 
environment.
    Additionally, at E&C last Congress, we addressed some of 
the issues stemming from the Part 810 process, which can affect 
our civil nuclear industry's ability to engage in international 
nuclear commerce. The geopolitical benefits of such engagement 
were a significant motivating factor for reforming that 
process.
    So Mr. Powell, why is American advanced nuclear development 
important to global nonproliferation and climate efforts?
    Mr. Powell. Well, first, Mr. Johnson, it is good to see you 
again. I had the honor to testify before your other committee 
on similar topics recently. So thank you for your continued 
attention to these issues.
    Nuclear energy, particularly advanced nuclear energy, is an 
extremely important national security priority. If we think 
about the global energy market, many countries want to develop 
their own energy systems and see nuclear included in that mix. 
And our geopolitical competitors, Russia and China, are well 
ahead of us in exports of nuclear. The Russian order book, I 
understand, is in the hundreds of billions. The Chinese order 
book will be in the hundreds of billions.
    Mr. Johnson. And they are giving low-cost financing and all 
kinds of things to get their foot in that door. Right?
    Mr. Powell. Indeed.
    Mr. Johnson. Is it in our strategic interest to maintain 
both a robust civilian and military capability? And how do 
those two industries--how are they intertwined?
    Mr. Powell. Absolutely. This is a very interconnected 
ecosystem. So if you look simply at jobs for people coming out 
of the nuclear Navy and keeping that the most appealing part of 
the Navy to go into--because people know that they will have a 
job running a civilian reactor coming out of that--looking at 
the interlinked supply chains between these two things, there 
is so much overlap between the two industries.
    Mr. Johnson. Yes. You mentioned China and Russia and 
others. As more of the developing world considers nuclear as 
part of their energy mix, commercial energy mix, we have to ask 
the question why is it important for the U.S., not Russia or 
China, to serve as their partners? Why don't you take a crack 
at it and then I will say something.
    Mr. Powell. Absolutely. Well, I think we have to remember 
it is not nuclear or nothing in these countries.
    Mr. Johnson. Right.
    Mr. Powell. It is Chinese and Russian nuclear or American 
nuclear in these countries.
    Mr. Johnson. Right. Exactly.
    Mr. Powell. So you have to ask, do we trust the Chinese and 
Russian nonproliferation regime more than the American 
nonproliferation regime? I certainly do not.
    Mr. Johnson. Well, yeah. And I think it goes beyond just 
simple nonproliferation because nuclear projects are century-
long projects. They are more than centuries. They are--well, 
that is a century. They are hundred-year projects. I mean, when 
Russia and China get their foot in the door, they are there to 
stay--operations, maintenance, upgrades, et cetera, as 
technology changes.
    Mr. Powell, the first commercial scale U.S. coal carbon 
capture project, Petra Nova, began commercial operations in 
early 2017. It is designed to capture over 4,000 tons of carbon 
emissions from a coal plant and use those emissions to produce 
15,000 barrels of American oil each day, a 50 times increase 
over the field's status quo. The project was made possible by 
the public-private partnership with the Department of Energy. 
The primary industry partner on the project, NRG, has stated 
that a second project could be done at 20 to 30 percent lower 
cost with its lessons learned.
    Underscoring your point of learning by doing, how can 
federal innovation investment and innovate financing policies 
help bring first-of-a-kind technologies like Petra Nova to the 
commercial marketplace?
    Mr. Powell. We have now entered the period with carbon 
capture and storage where we need to do more of these projects 
to bring down the cost. It is less about a breakthrough and 
more about, as you said, learning by doing. So things like the 
45Q tax credit that would incentivize more projects so we can 
start to get those learnings and bring down costs, are 
extremely important.
    Mr. Johnson. And there is an analogy here with commercial 
nuclear. As we advance in that, we can help countries like 
India and others that have high carbon emissions do the same 
thing by helping them with that technology that Russia and 
China is not going to do.
    Mr. Powell. Absolutely.
    Mr. Johnson. With that, Mr. Chairman, I yield back.
    Chairman Yarmuth. I thank the gentleman. His time is 
expired.
    I now yield 10 minutes to the Ranking Member, Mr. Womack.
    Mr. Womack. All right. Thank you. And once again I want to 
thank the panel for being here. And specifically, I want to 
thank the people who have served their country in uniform, the 
two admirals; Dr. Benjamin, Army guy--I am an Army guy, so----
    Mr. Johnson. Aim high. Go Air Force.
    [Laughter.]
    Mr. Womack. There is one really bright spot that has come 
out of this hearing this morning. It is the unknown 
intellectual capacity of my friend, Mayor Burchett from 
Tennessee. He was using some very big words and he was taking 
credit for a lot of things that he admitted he had nothing to 
do with.
    But boy, it is good to know that members on our side of the 
aisle have at least a command of some of that. I don't know if 
it is real or not. He may have just stayed in a Holiday Inn 
Express one night and just thinks he knows all that stuff.
    My colleague from South Carolina talked a lot about the 
budget, and some of the other members have talked about the 
lack of a budget. I empathize with my friend the Chairman here 
from Louisville, Kentucky because I have been in his seat 
before and I know what it is like to have to bring diverse 
thought processes around trying to get a budget out of this 
Committee.
    Now, we were able to get it out of Committee. We just never 
got it to the floor. He was unable to get it out of Committee, 
and again, I empathize with that because it is part of our 
Article I duty, and I am sorry that we are abdicating that 
duty.
    But Mr. Timmons talked about some numbers. And this is one 
of the things that I think America needs to understand and have 
a complete grasp of because we are about to have a couple of 
days of extremely intense discussions about how we fund the 
U.S. Government beginning on October 1st against the backdrop 
of a law, the Budget Control Act, that dictates and triggers a 
sequester should we not be able to come to some agreement on 
caps.
    And the inescapable fact is that as a percentage of our 
economy, discretionary spending--and that includes the spending 
that has been the subject of a lot of this discussion today--is 
going down. And as a percentage of our economy, mandatory 
spending vested in some very large programs is going higher.
    When I ran for this office, the discretionary budget of the 
United States of America was over $1.3 trillion. Today the 
number we will be arguing vehemently about is a little over 
$1.3 trillion. And we are 10 years down the road. I think it 
was Admiral--how do you say it, Titley? Admiral Titley talked--
wasn't it you that talked about ARPA-E?
    I am a fan of ARPA-E, not because I happen to know Arun 
Majumdar very well on a personal basis, but because I also 
recognize--I liked the model. The model was we take some of 
this crazy research and we incubate it because nobody else is 
going to do it. And then we hand it off, so to speak, to the 
private sector to develop and turn into great technology for 
our country.
    But again, ARPA-E is one of those agencies that gets its 
money out of the discretionary budget of the United States. So, 
Chairman, I think our country is just not having that 
conversation. We are focused on simple math about blowing holes 
in deficits, and we know we have got a trillion-dollar deficit, 
and we know we have got a $22 trillion debt, and we know what 
net interest on the debt is; it is going to be a billion 
dollars a day, a little over a billion dollars a day this year, 
to just service the minimum payment due. So I am as frustrated 
as anybody.
    But I wish we could channel some of our angst into 
discussing the true drivers of the deficit and the debt in this 
country because if you are going to spend about the same amount 
of money on discretionary spending in 2019 and 2020 as you did 
in 2010, the discretionary budget is not the problem.
    Now, thanks for allowing me to get up on my soapbox. I want 
to direct the last couple of minutes of my questions regarding 
Yucca Mountain. I said in my opening that I have been to Yucca 
Mountain. We have talked favorably about nuclear energy as part 
of the portfolio that is so important to our country, and 
probably among the cleanest things that we do in terms of 
powering our nation.
    But we have a hundred--the number escapes me; you may know, 
Rich--a number of sites. I have one in my district--that is 
storing spent nuclear fuel. And in my strong opinion, we need 
to have this spent nuclear fuel consolidated somewhere. And all 
the science that anybody can read points to the fact that Yucca 
Mountain could be a repository for--I may be wrong on this, but 
I think it was a million years. I cannot think how long that 
is, but a millennium.
    So anyway, we are currently 20 years behind in implementing 
the program that was authorized by Congress. So, Rich, does it 
make sense to have an operating nuclear waste program? And help 
me understand why we should not be following through with the 
commitment that we made on Yucca Mountain.
    Mr. Powell. Well, first, Ranking Member Womack, thank you 
for your leadership on clean energy appropriations. Thank you 
for your leadership in cosponsoring the LEADING Act. Thank you 
for your leadership on nuclear energy and the spent fuel issue.
    It is essential that we have a resolution to the question 
of spent fuel or nuclear waste in this country. It is, as some 
would say, an albatross around the neck of this industry. It 
contributes to a negative public perception of the industry, 
and that is very important. It is important if we ever want to 
think about siting new nuclear reactors and expanding this 
again.
    We have got a legal obligation to put that in a permanent 
repository. It seems like Yucca Mountain is a terrific place 
for that permanent repository. At ClearPath we also think it 
would be a good idea to think about interim solutions as well, 
as the permanent repository is being created.
    And we also think it is important to remember that that 
nuclear fuel, that spent fuel, has only had about 3 percent 
used. It is just our existing reactors cannot use more of it 
than that. Advanced reactors could use a whole lot more, and so 
we would argue that when we deposit that fuel, we should do so 
in a way so that it can be recovered and the rest of that 
really important energy could be used one day in advanced 
reactors as well.
    Mr. Womack. Why is American advanced nuclear development 
important to the global effort on satisfying the changing 
climate?
    Mr. Powell. Well, if we think about the global energy 
picture, there are a lot of places that are not blessed with, 
say, the renewable resources that the United States are. We 
have got a lot of open land. We have got a lot of great wind 
and sunshine in the United States. We can go really far with 
renewables--not all the way with renewables, but really far 
with renewables in the United States.
    There are a lot of other parts of the world with huge 
populations that are going to have really high energy demand 
that do not have those same resources. Look at something like 
Indonesia, right, a country of 225 million people, nearly as 
many as the United States, spread across 10,000 very small 
islands. Right?
    And that country is actually exploring floating advanced 
nuclear reactors as a way to both meet its climate change 
commitments and power the future for its people. So there are 
going to be a lot of parts of the world that need an option 
like that, a really energy-dense, low-cost, highly flexible 
option to power growing populations.
    Mr. Womack. I want to thank the panel again. A very 
enlightening discussion this morning. Thank you, Mr. Chairman, 
for having it, and I am going to yield back the remaining 
minute of my time.
    Chairman Yarmuth. I thank the Ranking Member. I now yield 
myself 10 minutes. And I want to thank the Ranking Member for 
his comments earlier regarding the levels of discretionary 
spending. One of the remarks made earlier was that we were 
raising spending in this budget deal by $320 billion, and the 
question is, against what?
    And we were raising--that is not against last year's 
spending or the year before. That is against the sequestration 
level caps that were put in in 2011. So we are basically at the 
same spending level we have been for a long time.
    And I also want to commend the Ranking Member, whose 
commitment to finding a better way to do the budget process is 
as strong as anyone in this Congress. He has spent a year 
leading us in a bipartisan, bicameral attempt to find better 
ways to approach budgeting, and we have agreement on a number 
of items and hopefully we can pursue those.
    But let's turn back to this----
    Mr. Womack. Do not forget this guy right here, too, because 
he was part of that.
    Chairman Yarmuth. That's right. Mr. Woodall was a very 
important part of that effort.
    I want to return to the theme of the hearing and reference 
a comment that Mr. Scott made earlier in his remarks, that 
really what we are talking about when we talk about climate 
change and the budget and our response to it here is the cost 
of doing nothing.
    And I think that is where this hearing has contributed a 
great deal of important information because we have seen, in 
various segments of our economy and our national institutions, 
what the cost of doing nothing is. And that is one of the 
things that I think we have to remain focused on because doing 
nothing is really not an alternative for this country. And we 
have seen private sector responses from Unilever and others, 
and that is very important.
    But I want to focus on some of the things that were in the 
written testimony that maybe did not come out. And one of the 
things, Ms. Grant, that I was stunned with in your written 
testimony was the comment about if we do nothing, what 
percentage of the annual family's budget could conceivably be 
spent on food as opposed to what currently is. I think the 
current average is right around 13 percent?
    Ms. Grant. 12.7 percent today. And looking at developing 
countries and what they are paying, up to 60 or 70 percent of 
total budget, total household budget, could go towards food.
    Chairman Yarmuth. That is a stunning number. And when you 
consider what we know in the United States what people pay for 
housing as a percentage of their budget, to add a huge 
percentage of that to food makes basic living unsustainable. So 
we have got to--in addition to whatever costs the taxpayers 
will face through the federal budget from climate change, we 
have got a lot of very significant direct costs as well.
    Admiral Phillips--and I echo my colleagues in thanking all 
of those military representatives for their service--one of the 
things that impressed me about your testimony was that we were 
focused primarily, or the hearing was supposed to be focused 
primarily on, the federal budget.
    But what became very clear is there is a huge cost to 
climate change at the state level and the local level through 
the taxes on those levels. Could you elaborate on how the state 
and local taxes have been affected by your efforts to create 
resilience?
    Admiral Phillips. Thank you, Mr. Chairman, for that 
question. I think I would like to refer to some work that has 
been done by the City of Virginia Beach. They have spent quite 
a bit of time doing analysis within their city, within their 
budget, to understand what the costs of doing nothing for them 
are now and what they will be over time.
    And so what they have found through their analysis--and 
they were working with Dewberry as a consultant, which is 
helping them with this--is that today, their costs in dealing 
with rising waters and flood impacts in their city are about 
$26 million a year. With another 18 inches of sea level rise, 
those costs, if they do nothing, rise to $77 million a year. 
With another three feet of sea level rise, those costs rise to 
$329 million a year.
    So if they do nothing, by the time we get to another three 
feet of sea level rise, which would be later this century, 
according to predictions and scientific data we have right now 
for our region, that Hampton Roads region, they will be paying 
$329 million, roughly, annually based on their analysis without 
doing any other activity.
    So when you put that against their work to develop 
solutions and their bill that they have right now, roughly $2.4 
billion in solutions that will help protect some large portion, 
at least a quarter of their city, that helps bring those costs 
down considerably. In fact, the solution that they are most 
interested in pursuing would bring those costs down to almost 
$33 million a year.
    But there is still a cost of $33 million a year. So then 
they would have to work out what the next set of solutions are 
to try to eliminate that kind of cost as well. This is one city 
of 17 in the Hampton Roads planning district alone.
    There are eight planning districts in coastal Virginia, 
roughly everything east of I-95, urban, suburban, rural and 
industrial. They all have different costs and challenges ahead 
of them. But just as an example, these are very large costs for 
one state to try to deal with.
    And so the challenge for the state is, and the challenge 
for the cities, how do we come up with that? What do we do with 
our debt in that context? How do we plan and prepare Virginia 
Beach as a wealthy city? What about less wealthy cities? What 
are their choices? What about rural communities? What are their 
choices? They have far less tax to deal with.
    So we have this conundrum of the need to be able to borrow 
to buy down risk, the ratings agencies telling them, ``If you 
borrow more, then your credit rating is at risk itself. And so 
we will not let you borrow anymore.'' And so we have this 
paradox of trying to buy down our risk, trying to reduce our 
costs, and then not being able to do that because of our credit 
rating.
    So that is a challenge at the state level, but it is also a 
challenge that goes right down to the local level for cities 
and communities and localities.
    Chairman Yarmuth. Thank you.
    Admiral Titley, you mentioned one thing in your testimony 
that I had not thought about. But the fact that we have growing 
urbanization around the world, and that many of those cities 
are in coastal communities, which would tend to be affected 
more.
    Is there anything--obviously, we are having increasing 
urbanization in this country as well. Is there anything about 
the urban setting that makes people there, or the threat to 
them from climate change, greater than elsewhere?
    Admiral Titley. Thank you, sir, for the question. I think 
what it is for any of us--and probably most of us have lived in 
some kind of city at some point. Once you are there, I mean, 
the good thing is you have a lot of infrastructure to support 
you.
    But the bad thing is if that infrastructure is disrupted, 
from whatever cause. If you are in an apartment building or if 
you are in a very small lot, you are dependent on those 
services that are no longer there. You cannot just go out into 
your field and move three acres up because that is not the life 
you are leading.
    So I think I talked about--I call it the ``correlations go 
to zero'' end. And I think a tremendous challenge is going to 
be that given this rich discussion we had on lack of increase 
in discretionary funding, kind of what I mentioned earlier is 
the ice unfortunately does not care where our discretionary 
funding is. It just keeps melting.
    And just the sea level rise component alone--we have talked 
of a lot of other things--is going to drive hundreds of 
billions and perhaps trillions, of dollars, certainly trillions 
globally. If we start looking at two, three, four feet, how do 
we deal with this? And we are going to need to deal with it 
more or less at the same time.
    We do not get to say, ``California, you guys get to wait 
until 2120. New Orleans, hang on for 60 years while we deal 
with Miami.'' We do not get that luxury. Everybody, I think, 
sir, is going to the Congress, and the representatives saying, 
``My district needs and they need it now.'' How do we deal with 
that? And can we start planning how we are going to deal with 
that now?
    Chairman Yarmuth. Thank you. Mr. Powell, I appreciated your 
testimony very much. And I am going to ask a question, and make 
the mistake of asking a question I do not know the answer to.
    But back around 2010, we created, when we were in the 
majority and President Obama was President, we created a 
significant fund in the DOE. It was about, I think, $37 billion 
that was low-interest loans to incentivize innovation in the 
energy field. And most people know that only as the fund that 
funded Solyndra.
    But is that the type of initiative that you are 
referencing, where the government could be helpful? And with 
the little time I have left, what was either good or bad about 
that initiative?
    Mr. Powell. So that is the Department of Energy's Loan 
Program Office. Contrary to popular believe, it is still very 
much alive, so there is still about $40 billion in authority 
left in that program. There is still significant authority for 
advanced fossil energy projects, advanced nuclear energy 
projects, some left for very large renewable projects and 
advanced vehicle projects as well.
    I think a few things went wrong around the Solyndra 
project, obviously. But overall, that program has had terrific 
performance. Right? It has launched the birth of the 
commercial-scale solar and wind industry. It was very helpful 
in scaling up Tesla, now our national champion electric vehicle 
manufacturer. And it was extremely important in getting the 
first generation 3-plus nuclear reactor in the great state of 
Georgia now constructed, the Vogtle three and four reactors.
    So it has actually been quite a successful program, and we 
do think that a continuing role for some kind of financing for 
early commercial technologies is a really important part of the 
federal toolkit. The commercial lending sector is just not 
willing to take technology risk on big loans, and so having a 
federal bridge there that often brings in private sector 
financing as well around it, we think, is a really important 
role for the federal innovation apparatus.
    Chairman Yarmuth. I appreciate that. Unfortunately, my time 
is expired. Ten minutes can go by quickly. Dr. Benjamin, I did 
not have a chance to ask you a question, but I thank you as 
well as the remaining members of the panel for a really 
important discussion. And all of you made significant 
contributions to what I think will be a pretty important 
Committee record.
    So with that, I will remind members that they can submit 
written questions to be answered later in writing. Those 
questions and your answers will be made part of the formal 
hearing record. Any member who wishes to submit questions for 
the record may do so within seven days.
    And with that, once again thanks to all of our panel and 
the Committee Members, and without objection, this hearing is 
adjourned.
    [Whereupon, at 12:30 p.m., the Committee was adjourned.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
</pre></body></html>
